<html>
<title> - REVIVING OUR ECONOMY: THE ROLE OF HIGHER EDUCATION IN JOB GROWTH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 REVIVING OUR ECONOMY: THE ROLE OF HIGHER EDUCATION IN JOB GROWTH AND 
                              DEVELOPMENT

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

               HEARING HELD IN MONROE, MI, APRIL 9, 2013

                               __________

                           Serial No. 113-11

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-195                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Ruben Hinojosa, Texas,
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                John A. Yarmuth, Kentucky
Matt Salmon, Arizona                 Suzanne Bonamici, Oregon
Brett Guthrie, Kentucky              Carolyn McCarthy, New York
Lou Barletta, Pennsylvania           Rush Holt, New Jersey
Joseph J. Heck, Nevada               Susan A. Davis, California
Susan W. Brooks, Indiana             David Loebsack, Iowa
Richard Hudson, North Carolina
Luke Messer, Indiana


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 9, 2013....................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     2
    Walberg, Hon. Tim, a Representative in Congress from the 
      State of Michigan..........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Betz, Cheri, southeast regional director, College for 
      Professional Studies, Siena Heights University.............    35
        Prepared statement of....................................    37
    Dowler, Lynette, plant director, fossil generation, DTE 
      Energy.....................................................     7
        Prepared statement of....................................     9
    Fairbanks, Dan, UAW international representative, UAW-GM 
      Skill Development and Training Department..................    16
        Prepared statement of....................................    18
    Levy, Douglas A., director of financial aid, Macomb Community 
      College....................................................    48
        Prepared statement of....................................    49
    Lievens, J. Henry, commissioner, Monroe County...............     6
        Prepared statement of....................................     7
    Nixon, David E., Ed.D., president, Monroe County Community 
      College....................................................    28
        Prepared statement of....................................    31
    Shields, Michelle M., career coach, Jackson Community College    44
        Prepared statement of....................................    46
    Smith, Susan, executive director, Economic Development 
      Partnership, Hillsdale County..............................    12
        Prepared statement of....................................    15


                         REVIVING OUR ECONOMY:
                    THE ROLE OF HIGHER EDUCATION IN
                       JOB GROWTH AND DEVELOPMENT

                              ----------                              


                         Tuesday, April 9, 2013

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:04 a.m., in 
Administration Building, Monroe County Community College, 1555 
S. Raisinville Rd., Monroe, MI, Hon. Virginia Foxx, [chairwoman 
of the subcommittee] presiding.
    Present: Representatives Foxx and Walberg.
    Staff Present: Casey Buboltz, Coalitions and Member 
Services Coordinator; Amy Jones, Education Policy Counsel and 
Senior Advisor; Emily Slack, Legislative Assistant; Alex 
Sollberger, Communications Director; and John D'Elia, Minority 
Labor Policy Associate.
    Chairwoman Foxx. A quorum being present, the subcommittee 
will come to order.
    Good morning and welcome to the first field hearing of the 
Subcommittee on Higher Education and Workforce Training in the 
113th Congress. It is good to be here in Michigan's 7th 
District with my esteemed colleague, Representative Walberg. 
Thank you all for joining us.
    I am a former community college president, and I am 
particularly glad to be on a community college campus and, I 
think, to see a group of students with us this morning. So I am 
glad that whoever your teachers were had good advice to send 
you over to the hearing, and we are delighted to have you with 
us.
    I also want to give a special thanks to our witnesses. I 
know you all have busy schedules, and we are grateful you are 
taking time to share your valuable insights with us today.
    Despite recent employment gains, these are still tough 
times for far too many Americans. Here in Michigan, the 
unemployment rate stands at 8.8 percent, higher than the 
national rate. Meanwhile, local job creators report they are 
unable to find workers with the skills necessary to compete for 
available jobs. This issue, called the ``skills gap,'' was the 
subject of a recent two-day conference Governor Rick Snyder 
hosted with many of Michigan's business, education, and 
government leaders.
    Our nation's economy is only as strong as its workforce. 
And right now, the federal system intended to help workers 
access the education and skills they need to succeed is broken. 
To support our workforce and tackle the skills gap problem, the 
U.S. House of Representatives approved legislation last month 
that will ensure workers have access to a more efficient and 
effective workforce development system. The legislation, known 
as the SKILLS Act, will eliminate waste and better align 
available education and workforce development programs with the 
needs of local employers and workers.
    However, more must be done. In the coming months, the 
committee will begin its work to reform the Nation's higher 
education system. As part of that effort, my colleagues and I 
will discuss responsible reforms that will help provide 
institutions with additional flexibility so they can be more 
responsive to the needs of students, the community, and the 
local workforce. We must also work to eliminate federal 
mandates and red tape that raise costs for schools and prevent 
innovation.
    As I said earlier, I am a former community college 
president and university administrator, and as such I 
understand the importance of forging partnerships among 
businesses, communities, and institutions of higher education. 
When I was at Mayland Community College, I worked with business 
owners and community leaders to collaborate on ways we could 
better meet the needs of the local economy and workforce. 
Investing in those relationships helps ensure businesses have a 
skilled workforce while also providing opportunities for 
students to advance their education.
    In addition to learning about the challenges and 
opportunities facing Michigan's schools and workplaces, the 
committee is very interested to hear your take on federal 
policies that may be standing in the way of job creation. As we 
work to foster a growing economy, we must make sure Washington 
does not block the road to growth and prosperity. I hope we can 
have a productive discussion today on ways we can work together 
at the local, state, and federal level to help rebuild our 
economy and help support a more prosperous future for families 
here in Michigan and across the United States.
    Again, we appreciate the panelists' participation in 
today's hearing, and I'm looking forward to getting this 
discussion underway. Let me also thank Mr. Walberg for his 
gracious invitation to hold a field hearing here in his 
district, and without objection, I now yield to him for his 
opening remarks.
    [The statement of Chairwoman Foxx follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    Good morning, and welcome to the first field hearing of the 
Subcommittee on Higher Education and Workforce Training in the 113th 
Congress. It is good to be here in Michigan's 7th District with my 
esteemed colleague Representative Walberg. Thank you all for joining 
us. I'd like to extend a special thanks to our witnesses. I know you 
all have busy schedules, and we are grateful that you are taking the 
time to share your valuable insight with us today.
    Despite recent employment gains, these are still tough times for 
far too many Americans. Here in Michigan, the unemployment rate stands 
at 8.8 percent--higher than the national rate. Meanwhile, local job 
creators report they are unable to find workers with the skills 
necessary to compete for available jobs. This issue, called the 
``skills gap,'' was the subject of a recent two day conference Governor 
Rick Snyder hosted with many of Michigan's business, education, and 
government leaders.
    Our nation's economy is only as strong as its workforce. And right 
now, the federal system intended to help workers access the education 
and skills they need to succeed is broken. To support our workforce and 
tackle the skills gap problem, the U.S. House of Representatives 
approved legislation last month that will ensure workers have access to 
a more efficient and effective workforce development system. The 
legislation, known as the SKILLS Act, will eliminate waste and better 
align available education and workforce development programs with the 
needs of local employers and workers.
    However, more must be done. In the coming months, the committee 
will begin its work to reform the nation's higher education system. As 
part of that effort, my colleagues and I will discuss responsible 
reforms that will help provide institutions with additional flexibility 
so they can be more responsive to the needs of students, the community, 
and the local workforce. We must also work to eliminate federal 
mandates and red tape that raise costs for schools and prevent 
innovation.
    As a former community college president and university 
administrator, I understand the importance of forging partnerships 
between businesses, communities, and institutions of higher education. 
When I was at Mayland Community College, I worked with business owners 
and community leaders to collaborate on ways we could better meet the 
needs of the local economy and workforce. Investing in those 
relationships helps ensure businesses have a skilled workforce while 
also providing opportunities for students to advance their education.
    In addition to learning about the challenges and opportunities 
facing Michigan's schools and workplaces, the committee is very 
interested to hear your take on federal policies that may be standing 
in the way of job creation. As we work to foster a growing economy, we 
must make sure Washington does not block the road to growth and 
prosperity. I hope we can have a productive discussion today on ways we 
can work together--at the local, state, and federal level--to help 
rebuild our economy and help support a more prosperous future for 
families here in Michigan and across the United States.
    Again, we appreciate our panelists' participation in today's 
hearing, and I'm looking forward to getting this discussion underway. 
Let me also thank Mr. Walberg for his gracious invitation to hold a 
field hearing here in his district, and without objection, I now yield 
to him for his opening remarks.
                                 ______
                                 
    Mr. Walberg. I thank the Chairwoman for this opportunity. I 
have attended a number of field hearings a long ways from my 
district, so it is nice to have one in my district and have the 
opportunity for my district, as well as others, to speak on a 
crucial issue.
    Chairwoman Foxx, I appreciate the time that you have given 
this morning to travel from beautiful North Carolina--North 
Carolina; is that how you say it?--all the way up to extremely 
beautiful and productive Michigan, Southeast Michigan 
specifically here. I would like to thank all of the staff here 
at Monroe County Community College and its president, David 
Nixon, for the time it took to prepare for this hearing and 
allowing us to use their facilities. To our witnesses, I would 
also like to thank you for making time to participate today.
    This is a unique opportunity to shine a national spotlight 
on how higher education, community leaders and businesses in 
Michigan are effectively bridging what has now come to be known 
as the skills gap.
    Well before the financial crisis of 2008, our communities 
here in Michigan wrestled with the challenge of ensuring the 
skills processed or possessed by our workforce meet the skills 
demanded by our ever-evolving work needs. Bridging this gap 
ensures our ability to grow businesses and compete domestically 
and internationally.
    In Michigan, the unemployment rate is near 9 percent, and 
yet we hear from entrepreneurs every day that Michigan is open 
for business. The predicament many businesses face is that they 
simply cannot find enough employees with the skills and 
training to fill their demands for jobs. In fact, MITalent.org, 
one of the premier sites that Michigan employers use to recruit 
talent, shows the demand for jobs. A search within 50 miles of 
where we are sitting today shows there are more than 16,000 
jobs currently available. Remarkably, that number would be 
substantially higher if it were not for some of the 
institutions of higher education, businesses, and workforce 
development agencies across the region that are represented in 
this room this morning.
    Despite the tough economic circumstances we face, employers 
like DTE and many others that call our region home continue to 
renew and expand their operations and demand educated 
employees. They see the value in working with schools like 
Siena Heights University and community colleges like those in 
Jackson and Monroe and others to teach future employees the 
skills needed to fill these good-paying jobs which can support 
their families.
    One of our tasks on the Subcommittee on Higher Education 
and Workforce Training requires us to examine actions we can be 
taking on the federal level in using hard-working taxpayer 
dollars effectively--let me say that again, effectively using 
hard-working taxpayer dollars--to encourage our institutions of 
higher education and job creators to work in collaboration in 
getting job seekers prepared for the careers currently 
available in the market today.
    One such action we recently took, as the Chairwoman 
expressed, was to pass the SKILLS Act that was authored by my 
colleague sitting next to me, the Chairwoman of this 
subcommittee. The SKILLS Act would consolidate and streamline 
our workforce development processes to make them more efficient 
and ensure that hard-working taxpayers see their money spent 
wisely. The legislation places an emphasis on workforce 
development at the local level by requiring local workforce 
boards to set aside a portion of their funding for training 
programs. This will enable community colleges, such as Monroe 
and Jackson, to contract with their local boards to more 
adequately address the needs of their community and their 
students. I believe the SKILLS Act was a significant step to 
help Michigan's job seekers.
    As we go about our work in the U.S. House of 
Representatives and the Education and Workforce Committee, we 
need to continue on the path of working to reform our federal 
policies that enable job creation for a healthy economy. It is 
my goal to highlight what many schools and businesses in our 
great state are already doing by collaborating with job 
creators to ensure students learn the skills necessary for what 
is currently in demand, as well as what we will need for the 
future.
    And so again, I thank the chairman of this subcommittee for 
hosting and carrying on this field hearing, and I am expecting 
great opportunities to flow from it. Thank you.
    [The statement of Mr. Walberg follows:]

      Prepared Statement of Hon. Tim Walberg, a Representative in
                  Congress From the State of Michigan

    Chairwoman Foxx, I appreciate your time this morning to travel from 
North Carolina to be here with us. I would like to thank all of the 
staff here at Monroe County Community College for the time it took them 
to prepare for this hearing and allowing us to use their facilities. To 
our witnesses, I would also like to thank you for making time to 
participate today. This is a unique opportunity to shine a national 
spotlight on how higher education, community leaders and businesses in 
Michigan are effectively bridging what is now come to be known as the 
Skills Gap.
    Well before the financial crisis of 2008, our communities here in 
Michigan wrestled with the challenge of ensuring the skills possessed 
by our workforce meet the skills demanded by our ever-evolving job 
market. Bridging this gap ensures our ability to grow business and 
compete domestically and internationally.
    In Michigan the unemployment rate is near 9 percent and yet we hear 
from entrepreneurs every day that Michigan is ``open for business.'' 
The predicament many businesses face is that they simply cannot find 
enough employees with the skills and training to fill their demand for 
jobs. In fact, M-I-Talent.org--one of the premier sites that Michigan 
employers use to recruit talent--shows that demand for jobs. A search 
within 50 miles of where we are sitting shows there are more than 16 
thousand jobs currently available today. Remarkably, that number would 
be substantially higher if it were not for some of the institutions of 
higher education, businesses, and workforce development agencies across 
the region that are represented in this room.
    Despite the tough economic circumstances we face, employers like 
DTE and many others that call our region home continue to renew and 
expand their operations and demand educated employees. They see the 
value in working with schools like Siena Heights University and 
community colleges like those in Jackson and Monroe County to teach 
future employees the skills needed to fill these good paying jobs which 
can support their families.
    One of our tasks on the Subcommittee on Higher Education and 
Workforce Training requires us to examine actions we can be taking on 
the federal level in using hard-working taxpayer dollars effectively to 
encourage our institutions of higher education and job creators to work 
in collaboration in getting job seekers prepared for the careers 
currently available.
    One such action we recently took was to pass the SKILLS Act that 
was authored by my colleague sitting next to me and the Chairwoman of 
this Subcommittee, Dr. Foxx. The SKILLS Act would consolidate and 
streamline our workforce development processes to make them more 
efficient and ensure that hardworking taxpayers see their money spent 
wisely. The legislation places an emphasis on workforce development at 
the local level by requiring local workforce boards to set aside a 
portion of their funding for training programs. This will enable 
community colleges, such as Monroe and Jackson, to contract with their 
local boards to more adequately address the needs of their community 
and students.
    I believe the SKILLS Act was a significant step to help Michigan's 
job seekers. As we go about our work in the U.S. House of 
Representatives and the Education and Workforce Committee we need to 
continue on the path of working to reform our federal policies that 
enable job creation for a healthy economy. It is my goal to highlight 
what many schools and businesses in our great state are already doing 
by collaborating with job creators to ensure students learn the skills 
necessary for what is currently in demand as well as what will be in 
the future.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Congressman Walberg.
    I also want to say thank you to the staff and the 
administration here at the community college for their work in 
setting up the hearing, and our staff. Most people have no idea 
how much work goes into having a hearing, even in Washington, 
and then to have one remotely takes a lot of effort. So I want 
to thank Amy and Casey and Emily and all the folks who worked 
to put this hearing together today.
    Pursuant to committee Rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    We have two distinguished panels of witnesses today, and I 
would like to begin by introducing the first panel.
    Mr. Henry Lievens is currently serving his eighth year as a 
Monroe County Commissioner. As a member of the County Board of 
Commissioners, Mr. Lievens chairs the Personnel Services and 
Human Resources Committee that deals with all Monroe County 
employment issues.
    Ms. Lynette Dowler serves as Plant Director within the 
Fossil Generation organization at DTE Energy and is currently a 
Foundation member for Monroe Community College Board of 
Directors.
    Ms. Susan Smith has served as the Executive Director of the 
Economic Development Partnership of Hillsdale County since 
2009. Prior to serving in this role, she worked with the 
Lenawee Economic Development Corporation, as well as the 
Lenawee Training and Education Consortium.
    Mr. Dan Fairbanks serves as the UAW International 
Representative for the UAW-GM Skilled Development and Training 
Department.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. You will each have 
5 minutes to present your testimony. When you begin, the light 
in front of you will turn green. When 1 minute is left, the 
light will turn yellow; and when your time has expired, the 
light will turn red, at which point I ask that you wrap up your 
remarks as best as you are able. After everyone has testified, 
members will each have 5 minutes to ask questions of the panel.
    I now recognize Commissioner Henry Lievens for 5 minutes.

           STATEMENT OF HENRY LIEVENS, COMMISSIONER,
                         MONROE COUNTY

    Mr. Lievens. Thank you. I'm not sure that I'll need the 
entire 5 minutes. I always like to think that brevity is the 
soul of wit, so I will keep it to a minimum.
    I am both a county commissioner and a practicing attorney, 
so my thoughts and observations are on two points. And if I 
could begin with a mile-high perspective of Monroe County.
    Monroe County has an approximate labor force of 68,500 
folks, of which about 5,600 or 8.2 percent are currently 
unemployed. I understand that that is less than the state 
average, but it is still unacceptable. While unemployment 
numbers are improving, the devastating effects of the peak 2009 
14 percent unemployment rates are still being felt.
    I took office in 2005, graduating from law school in 2003, 
and my entire professional and political career has been marked 
by war and recession. These have been challenging times for the 
Nation, and particularly for the State of Michigan, being the 
home of manufacturing.
    Of the changes in the specific industries, the largest job 
losses were in manufacturing here locally, approximately 2,818 
jobs being lost in manufacturing and construction of 1,346. I 
would never argue that government should be the main employer. 
I am a big proponent of the private sector. In the County of 
Monroe, when I took office, there were approximately 725 
employees. With the loss of jobs, how that has corresponded in 
housing and our general tax revenue streams, we have downsized 
to now 400, almost half of the employees we once had.
    What that means is the increased need for technology. The 
days of the typist pools, the filing clerks are now giving way 
to more tech savvy type jobs, going paperless. The prosecutor's 
office now is currently or has been working on a paperless 
system whereby the police report to the prosecution to the 
court is done via computer systems electronically and the rest. 
This is translating into higher technology jobs for the county.
    In addition to that, in my private practice, a lot of the 
folks that I see that come before me are having problems with 
jobs. A big assistance to them is the skilled trades. There 
aren't the jobs anymore for the unskilled trades. These are 
folks that need to be trained in welding, in other types of 
things that the community college is providing. So that is one 
of the things that we see in gains in the skilled trades, 
especially health care. Those jobs in the county are up 1,850.
    So the lasting consequences I am seeing the change in the 
county is the need for more skilled trades and professional 
service-sector jobs, and that is one of the things that the 
community college is helping provide, and I would like to see 
the resources provided to them to help encourage the 
reinvigoration of our local county economy.
    Thank you.
    [The statement of Mr. Lievens follows:]

                Prepared Statement of J. Henry Lievens,
                       Monroe County Commissioner

    Good morning, Congresswoman Virginia Foxx, Congressman Tim Walberg, 
Mayor Robert Clark, Monroe County Community College President Dr. David 
Nixon, distinguished guests, ladies and gentlemen. My name is J. Henry 
Lievens. I have been a Monroe County Commissioner for 8 years and a 
practicing attorney for 9 years. For the past 6 years I have served the 
Board of Commissioners as Chairman for the Personnel Services and Human 
Resources Committee.
    I am also a member of the local Exchange Club, Monroe Center for 
Health Aging and Land Bank. I would like to thank you for this 
opportunity to discuss my observations with you today.
    The uncertain state of the economy remains a primary concern for 
many in Michigan and especially so for the residents of Monroe County.
    Monroe County has an approximate labor force of 68,500 of which 
5,600 or 8.2% are unemployed.
    While unemployment numbers are improving, the devastating effects 
of the peak 2009 14% unemployment rate are still being felt.
    Of the changes within specific industries, the largest job losses 
were in manufacturing (-2,818) and construction (-1,346) while gains 
were made in service sector jobs, especially health care and social 
assistance (+1,850).
    Thus, the lasting consequence is the necessity for education for 
skilled trades and professional sector jobs.
    In Monroe County, an individual without a high school diploma earns 
less than $18,000 a year while their counterpart with an associate 
degree can expect almost $37,000.
    This reflects the reality that the jobs for the unskilled trades/
labor are no longer the reality for Monroe County and demonstrate the 
need to develop the resources necessary to train for the future needs 
for skilled trades and professions.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    I now recognize Ms. Lynette Dowler for 5 minutes.

          STATEMENT OF LYNETTE DOWLER, PLANT DIRECTOR,
                 FOSSIL GENERATION, DTE ENERGY

    Ms. Dowler. Good morning and thank you for the opportunity 
to speak with you this morning. My name is Lynette Dowler, and 
I have been with DTE Energy for 30 years. DTE Energy is an 
electric provider to 2.1 million customers here in Michigan, 
and a natural gas provider to 1.2 million customers here in the 
State of Michigan. That process is really, for our customers, 
supposed to be a very easy process, so that they can just flip 
on a light, right? So our job is really just to provide 
electricity and power.
    In order to do that, we have 10,000 employees, and those 
employees need to be well educated, well skilled, and well 
trained. Part of the job of DTE Energy is really to have a 
robust workforce plan. We work very diligently to manage our 
workforce plan, and we review that on a regular basis, and we 
identify the critical jobs within our company. In that process, 
we look out over the next five years to see where our attrition 
rates are, and in our company, at DTE Energy, we are projecting 
about 25 to 33 percent attrition rate.
    As we look at the skills and the talents that we need in 
our company over the next five years--and we have had a 
tremendous partnership with many colleges across the state, one 
of them being here at Monroe Community College--to assure that 
as we attrit through our corporation we have skills and talents 
that can come through our community colleges to help support 
the talent gaps that we have in our corporation. Some of those 
talents are splicers, electrical journeymen, maintenance 
journeymen, nuclear power plant operators, I&C technicians. It 
is not easy to get a nuclear power plant operator just off the 
street. You need specialized training.
    And in order to have a great partnership, we have to have a 
community college that is open to listen and talk to you, and 
we have countless examples of partnerships that we have worked 
with this specific college to provide certification programs, 
and I will speak to a few of them.
    With Monroe County Community College, we have created a 
construction management and technical certification here. We 
have created a nuclear engineering technology program and e-
testing information assurance technology, boiler and power 
plant technology, alternative energy certificate. Who was 
talking about alternative energy 15 years ago, right? The 
colleges are moving with us and with industry. It is imperative 
to have that partnership for heavy industrial certificates.
    The message that I would say is that the longstanding 
partnership that we have had with Monroe County Community 
College is not a relationship that is built upon two and three 
and four and five years but it has been in place for decades.
    Monroe specifically, DTE Energy is the largest taxpayer in 
Monroe County. We also happen to generate the most power, power 
generation, in this county. We have a Monroe power plant which 
generates 3,000 megawatts, and our nuclear power plant which 
generates 1,200 megawatts. So when you think about major 
partnerships and major connections, this is a key connection 
for DTE Energy from an employment base, from a tax base, from 
an economic development base, a great employment connection. So 
there are just so many things that we have connections with.
    The other thing I wanted to speak to today was partnerships 
and consortiums. One of the things that we are challenged by as 
a corporation is how do you talk to community colleges, right? 
It is one conversation with Monroe, it is another conversation 
with Macomb, it is another conversation with Oakland, right? 
One thing that is important, and one of my colleagues that is 
here today, Raymond Kelly, the director of our training 
division, we have to pull together on colleges and pull 
together industry and have joint conversations with industry 
and colleges, and if there is something that we can do in a 
triad fashion with government, industry and education to bring 
all of us together so it is not many, many one-off 
conversations, we believe that would be a big step forward to 
help us all move forward to understand what the skill gaps are, 
what the talent gaps are, what the attrition is moving forward.
    So, thank you for our time today.
    [The statement of Ms. Dowler follows:]

         Prepared Statement of Lynette Dowler, Plant Director,
                     Fossil Generation, DTE Energy

    Good morning, Congresswoman Virginia Foxx, Congressman Tim Walberg, 
Mayor Robert Clark, Monroe County Community College President Dr. David 
Nixon, distinguished guests, ladies and gentlemen. My name is Lynette 
Dowler. I have been employed at DTE Energy for 30 years. I am currently 
the plant director for our Trenton Channel and River Rouge Power 
Plants, two of our base-load coal-fired power plants, delivering 730 
and 540 MW respectively. Prior to this position I was plant director at 
our Fermi 2 Nuclear Power Plant, which produces 1,139 MW of 
electricity.
    I am also a board member of the Foundation at Monroe Community 
College, and one of many DTE Energy employees who continue to enjoy a 
long and fruitful relationship with the college. I would like to thank 
you for this opportunity to discuss those relationships and 
interconnections with you today.
    As you know, energy is vital to modern society; at DTE Energy we 
call the electricity and natural gas we provide ``the lifeblood of our 
communities.'' DTE Energy is a Detroit-based diversified energy company 
involved in the development and management of energy-related businesses 
and services nationwide. Our operating units include an electric 
utility serving 2.1 million customers in Southeastern Michigan and a 
natural gas utility serving 1.2 million customers throughout Michigan. 
We are committed to providing safe, affordable, reliable and 
environmentally responsible energy to our customers now and into the 
future. There are many things that we need to ensure that we are able 
to fulfill our commitment, but above all else, we need a well-educated, 
well-trained local workforce.
    Energy is a ``just in time'' product--it has to be available to the 
customer precisely when they need it, with no effort on their part 
other than flipping a switch or turning on their stove or furnace. All 
the work ``behind the scenes'' is invisible to the customer, but 
(except for the mining operations), that work is all done locally by 
skilled DTE Energy employees.
    Like many Michigan companies, DTE Energy has an aging workforce. We 
realized years ago that we would need to replace our retiring workers 
with new people who can step into those positions and hit the ground 
running, without years of on-the-job training. That is a luxury that 
employers can no longer afford.
    Our Human Resources Department began building a workforce planning 
program in 2008, beginning with our Nuclear Generation Department. 
Implementation has continued across the enterprise, including Fossil 
Generation, Electrical Distribution Operations, DTE Gas Operations, 
Corporate Services, Controllers Organization and Information 
Technology.
    A first step was to identify ``enterprise critical positions'' or 
``pipelines'' that require greater than 18 months of initial training 
time, are hard to fill, contain more than ten individuals, and have an 
attrition rate of 33 percent or greater over the next five years. 
Fourteen critical job pipelines, in addition to our entry level 
professional positions, were identified as areas where we need to place 
our focus given the potential for skill set shortages.
    The pipelines include: Apprentice Splicer, Apprentice Lineman, 
Assistant Substation Operator, System Supervisor, Apprentice Electrical 
Maintenance Journeyman, Power Plant Operator, Fuel Supply Operator, 
Maintenance Journeyman, Instrument and Control Technician, Nuclear 
Maintenance Journeyman, Nuclear Operator, Radiation Protection 
Technician, Sr. Gas Technician Controls, and Gas Distribution General 
Fitter.
    Despite the high unemployment rate in Michigan and the nation, 
talent is becoming more difficult to find in these highly technical 
positions. For example, in 2010 and 2011, it took some 18 months to 
fill six Instrument and Control positions in our Nuclear Generation 
Department.
    We realized early on that this unemployment imbalance affects more 
than just DTE Energy and we could not solve it on our own. One of the 
strategies we are employing to address these talent gaps includes 
collaborating with our local utility partners and industry 
organizations to build regional consortiums and a standard utility 
curriculum. Developing a standard curriculum model was first introduced 
by the Nuclear Energy Institute (NEI); and this approach, or a similar 
variation of this approach, has become the direction within the overall 
utility industry.
    This standard utility curriculum is being embedded into community 
colleges' curriculums and yields a 2-year associate degree as well as 
an industry certification. Variations of the training have been 
developed for specific targeted groups including low income adults, 
women, youth, military, and transitioning adults.
    We started looking for partners--other utilities and companies 
outside of our industry, unions, higher educational institutions, and 
government entities--to help us tackle this societal problem. We have 
made significant progress but much more needs to be done. I am happy to 
be able to share with you some of our recent successes, and ask for 
your help as we move forward.
    One of our first endeavors was to identify educational institutions 
that could serve as pipelines to supply us with the new workers we need 
now and in the future. Fortunately, Monroe County Community College is 
right in our backyard, close to our Fermi 2 Nuclear Power Plant, as 
well as the Monroe Power Plant, our flagship 3,000 MW coal-fired 
generating station.
    DTE Energy employees started working with Monroe County Community 
College to develop educational programs to serve DTE Energy's needs and 
those of other Michigan companies. These programs include Construction 
Management Technology Certificate, Nuclear Engineering Technology, Non-
destructive Testing, Information Assurance Technology, Boiler and Power 
Plant Fundamentals, Alternative Energy Certificate, Green Building, and 
others.
    The Heavy Industrial Construction Certificate was launched in 2009, 
designed for more experienced construction personnel who wish to 
upgrade their skills and gain entry into management positions with 
large industrial employers, as well as new entrants into the field. 
This is an active and ongoing partnership that was started in 
cooperation with a now-retired DTE Energy employee, the former manager 
of environmental projects. Current DTE Energy employees continue to 
evaluate the viability and value of this certificate program through 
its advisory committee.
    As you may be aware, DTE Energy is in the home stretch of a nearly 
$2 billion state-of-the-art emissions control project at the Monroe 
Power Plant. This project involves the installation of flue gas 
desulfurization systems and selective catalytic reduction systems on 
all four generating units, and the removal of the two original 800-
foot-tall stacks and their replacement with two 580-foot tall stacks 
specially designed to accommodate the new equipment.
    The complexity and breadth of this and other DTE Energy 
construction projects, including the potential construction of the 
Fermi 3 Nuclear Power Plant, inspired the development of the Heavy 
Industrial Construction Certificate program, whose graduates are 
already working on-site at Monroe Power Plant and other locations.
    Recently developed programs at the college include the MCCC Nuclear 
Engineering Technology Program which was created through a partnership 
with DTE Energy and a $200,000 Congressionally directed grant award. 
Through this program, MCCC offers--in conjunction with DTE Energy--an 
Associate of Applied Science Degree in Nuclear Engineering Technology 
that enables graduates to seek employment as nuclear engineering 
technicians in various sectors of the nuclear industry. The partnership 
aligned MCCC's new nuclear energy technology program with the initial 
training programs offered by DTE Energy and accredited by the National 
Nuclear Accrediting Board. It facilitates the transitioning of 
graduates into the nuclear energy industry utility training programs in 
accordance with the requirements of the Uniform Curriculum Guide for 
Nuclear Power Plant Technician, Maintenance and Non-licensed Operations 
Personnel Associate Degree Programs, as developed by the Nuclear Energy 
Institute. MCCC also supports broader state and national interests 
through the distribution of developed curriculum to other community 
colleges through educational consortiums.
    The U.S. Department of Energy estimates the U.S. will need 44 
percent more electricity by 2020. To help meet this demand, the nuclear 
energy industry has calculated that 60,000 megawatts of new nuclear 
power plant capacity will be required by 2020. However, many of today's 
nuclear experts are part of the generation that pioneered nuclear 
energy's peacetime use in the 1960s. These professionals are now 
retiring, and qualified applicants are needed to take their place. 
According to the Nuclear Energy Institute, about 30 percent of the 
nuclear energy workforce will retire within five years. DTE Energy is 
looking to Monroe County Community College to supply its new employees.
    Last month, the DTE Energy Foundation announced a $1 million 
contribution to support the capital campaign for the new Career 
Technology Center at Monroe County Community College. The $17-million, 
60,000-square foot Career Technology Center is scheduled to open this 
fall. The State of Michigan is providing half of the funding ($8.5 
million) in a demonstration of support for this public/private 
partnership that will provide untold benefits for the region. The 
Career Technology Center will provide infrastructure to support state-
of-the-art classrooms and lab space required to deliver instruction and 
skills necessary to secure high-growth, high-demand and high-paying 
jobs.
    In addition to the Nuclear Engineering Technology and Heavy 
Industrial Construction classes, the program areas to be taught in the 
Career Technology Center include welding, computer-aided drafting and 
manufacturing, electronics, mechanical engineering and automation, 
quality assurance, and automotive engineering and service with an 
emphasis on hybrid and battery technology. In addition, the Career 
Technology Center will provide facilities and equipment necessary for 
the development of programs in the emerging areas of advanced 
manufacturing; renewable energies such as wind, solar and fuel cell 
technology, and sustainable and green technologies.
    MCCC received a $1.7 million U.S. Department of Labor Community 
Based Job Training Grant to establish a Welding Center of Expertise 
that will be housed in the new Career Technology Center. The Welding 
Center will deliver accelerated training in two ten-week modules 
resulting in industry-recognized American Welding Society 
certifications to help fill the void in skilled welders across the 
energy, advanced manufacturing, and heavy construction industries. Many 
of these graduates will find employment at DTE Energy.
    The college has recently launched a new program with specialization 
in product and process technology--designed to prepare students for 
careers in the high-performance manufacturing of consumer goods. The 
college has also added a program track in non-destructive testing which 
involves the inspection, testing or evaluation of materials, components 
and assemblies for materials' discontinuities, properties and machine 
problems without further impairing or destroying the parts' 
serviceability. Included among the variety of non-credit courses, 
certificates and customized training offered through MCCC's Corporate 
and Community Services Division is the Boiler and Power Plant 
Fundamentals class and an ongoing partnership with Pearson VUE Testing 
to offer advanced, computer-based CompTIA testing for certification in 
14 information technology specializations.
    Monroe County Community College and DTE Energy enjoy a long-
standing and close relationship in Monroe County. The college serves 
DTE Energy as a highly visible and respected community partner. The 
MCCC campus serves as the Joint Information Center for DTE Energy's 
Fermi 2 Nuclear Power Plant, and hosted the Nuclear Regulatory 
Commission during the public comment period for the Fermi 3 Combined 
Operating License Application (COLA).
    In return, DTE Energy has been a generous supporter of the college. 
In addition to the $1 million contribution to the Career Technology 
Center, other support from the DTE Energy Foundation, DTE Energy and 
DTE Energy Corporate Services includes funding for Campus/Community 
Events cultural arts programming, scholarships, Volunteer Leadership 
Grants, employee matching gift support, and the donation of solar 
panels for use by MCCC students.
    Within the past two years, MCCC became the first educational 
institution to participate in the DTE Energy's SolarCurrents Program, 
leading to a $3 million--500mw solar installation on its main campus. 
While this installation does not power the MCCC campus, it does provide 
learning opportunities for MCCC students and the community as well to 
become educated about the opportunity and impacts of renewable energy.
    In addition to our successful partnerships with Monroe County 
Community College, DTE Energy has created other promising 
collaborations, including one in Distribution Operations to improve the 
quality and diversity of the applicant pool for DTE Electric lineman 
positions. In 2004, DTE Energy developed an electrical lines worker 
training program that is considered the best in the Midwest. Working 
with the National Utilities Training Fund, a partnership between the 
International Brotherhood of Electric Workers and three other 
utilities, we brought retired DTE Energy linemen to our technical 
training center to assist with apprentice training. The lineman 
program, including a 5 week pole climbing course, is used to support 
candidacy for both Underground and Overhead Apprentice jobs. To-date we 
have hired 39 individuals who have successfully completed this course 
over the past 18 months.
    Another promising program, and one which has great potential to 
become a statewide and national model, is the ``Natural Gas Boot Camp'' 
program which DTE Energy has piloted in partnership with the Michigan 
National Guard. The idea for the Boot Camp emerged in early 2012 in 
meetings between DTE Energy and Brigadier General Michael Stone of the 
Michigan National Guard. While DTE has been trying to boost its veteran 
recruitment, the Michigan National Guard, with support from Governor 
Rick Snyder, has been looking for solutions to the state's veteran 
unemployment that could be applied nationwide.
    DTE Energy was instrumental in developing the Boot Camp curriculum 
and bringing in key partners to build the project, including Local 223 
of the Utility Workers Union of America, Consumers Energy, Alpena 
Community College, Schoolcraft Community College, the Center for Energy 
Workforce Development and the Michigan Workforce Intelligence Network.
    Graduation day was December 7 for 20 veterans who successfully 
passed DTE Energy's Natural Gas Boot Camp at Camp Grayling, a Michigan 
National Guard training facility. They completed four weeks of classes 
taught by Alpena Community College instructors in Grayling, followed by 
three weeks of hands-on instruction at Camp Grayling. A second Boot 
Camp, sponsored by Consumers Energy, ran concurrently in the metro 
Detroit area.
    The last step of the process was to conduct several After Action 
Reviews (AAR), gathering feedback from ``the partnership'', 
instructors, and students to determine what changes need to occur to 
make the next session even more successful. Union leadership from all 
four DTE Gas Company unions was informed of the program's progress and 
participated in those AARs. Improvements are being made to the Natural 
Gas Fundamentals program and will enable us to repeat our pilot success 
and increase the opportunity for union engagement.
    In addition, since DTE Energy provided the majority of private 
funding ($60,000) needed to make this first boot camp a reality, we are 
focused on reducing costs for future programs. Through the partnership 
approach and the work with General Stone, we hope to increase access to 
federal and/or state grants to support development and delivery of 
other boot camp programs.
    Beyond these two programs, several areas of opportunity exist to 
support other hard-to-fill jobs identified in our workforce planning. 
Specifically, power plant operator and instrument and controls 
technician are on the ``boot camp design board'' for implementation in 
2013. Additionally, an experiment will be conducted to create a 
``supervisor'' boot camp for veterans with existing leadership and 
applicable technical experience. This boot camp would provide students 
with utility industry insight coupled with operational fundamentals to 
support placement in DTE Electric positions, including Power Plant 
Supervising Operator and Supervisor Reliability.
    Congresswoman Foxx and Congressman Walberg, thank you for this 
opportunity to discuss how we have been working with our partners to 
address our employment needs and the higher education needs of our 
customers in this region. We find that public/private partnerships 
achieve the greatest results in all aspects of our business, including 
workforce training. We hope this field hearing has been beneficial and 
that your future travels provide you with additional useful 
information. We appreciate your time and attention, and hope that you 
will agree that government can assist in these efforts by providing 
grants and scholarships that will enable more people to be trained in 
these critical skills.
    DTE Energy is one of the largest employers and tax payers in the 
State of Michigan. We and our communities are inseparable. We regard 
our workforce planning program as both a challenge and an opportunity, 
for it allows us to fulfill our company's aspiration to be ``a force 
for growth and prosperity in the communities where we live and serve.''
    Thank you.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    I now recognize Ms. Susan Smith for 5 minutes.

    STATEMENT OF SUSAN SMITH, EXECUTIVE DIRECTOR, ECONOMIC 
          DEVELOPMENT PARTNERSHIP OF HILLSDALE COUNTY

    Ms. Smith. Thank you very much, and I really appreciate the 
opportunity to be here today. I think this is a vital 
conversation for the State of Michigan as we try and come back 
as a highly skilled workforce and a manufacturing state in the 
United States.
    I have been working in workforce development and economic 
development since 1993, and I have seen a lot of economies come 
and go. I have always focused more on meeting employer needs, 
and that is where my focus has been to try and foster their 
success, and frequently that need that they have is for a 
trained workforce. A lot of this work that I have done has been 
in concert with South Central Michigan Works. They have a 
demand driven system that works very well with our employers, 
and it tends to work well to serve them as well as to help our 
economy grow in Hillsdale County.
    I work with a lot of different employer sectors, but 
primarily it is manufacturing and industrial businesses. This 
is a group that--these employers tend to pay well above minimum 
wage, usually double minimum wage or more, and this provides 
their employees with discretionary income to purchase the goods 
and services, and that stimulates the other sectors in our 
economy. So that is where my focus is, to try and grow that 
particular sector.
    A skilled workforce has become the primary concern in 
regards to retaining employers and expanding their operations, 
as well as attracting new business. This is not new 
information, but the reaction speed to meet the skilled worker 
demand is ever increasing. The shortage of available workers is 
a result of a lot of factors that I have observed over time.
    In Hillsdale County, we are very small. We are about 46,000 
people, a little over that, and it seems that we are just a 
smaller group that kind of represents in a small way what is 
going on in a bigger part of the economy. The recession, 
depression, whatever you want to call it, that hit us in 2008 
through 2010, it really affected our working-class people in 
Hillsdale County. A lot of our highly skilled workers left to 
go to a region where they could have employment, gainful 
employment. Many of our workers who were offered attractive 
company buyouts took those. Anybody who was close to retirement 
and was offered a buyout left the workforce. So the skill gap 
is a factor of a lot of different things that have gone on.
    The educational system has become very college forward 
thinking in terms of getting curriculum in the high schools, 
the 2- to 4-year college and university and beyond that, and as 
that has gone on, slowly we have lost our skilled trade 
programs in the high schools. That is another part of why we 
are not having that gap filling at this point in time. That is 
just a missing component that we have had for some time.
    A lot of the companies that I work with regularly are 
turning down contract work because they do not have the workers 
they need to get product out the door to meet the deadlines and 
to have the quality standards that their customers demand.
    State workforce training dollars are no longer a part of 
the incentive packages offered to companies. So when I attract 
a business or someone is expanding, there is no longer a 
portion of those dollars that they can go to a community 
college and get training or go to a skilled trades organization 
and get training. So that opportunity has been lost. Typically, 
dollars from the Michigan Economic Development Corporation were 
part of the overall package.
    While there are other incentives that are offered, 
unfortunately the training dollars no longer are there, and 
that was very helpful for a lot of our employers.
    There are on-the-job training dollars that are available 
through South Central Michigan Works, and if we want to talk 
about bureaucratic and things that kind of stymie, those 
dollars are very hard to use. On-the-job training dollars, the 
person who is getting those dollars has to qualify at a level 
that is almost--it is just very difficult, it is very 
difficult. When we were rebuilding our workforce, it was a lot 
easier because we had people that had lost jobs that were 
pretty highly skilled, but they could transition into a new 
job. On-the-job training dollars helped them to make that 
transition. So there was a time those dollars were very, very 
useful and helpful for what we needed in our manufacturing 
arena. But right now, however, we need dollars to get people 
skilled up to even get them through the door at an employment 
situation.
    Incumbent Worker Training dollars are also available. The 
unfortunate part about that, again, is trying to utilize those 
dollars. To get those dollars, a company has to prove that the 
person is either going to get laid off or terminated unless 
they gain those skills. In 2008 and 2010, that would have been 
great. But right now, they need to keep their people and they 
need to just get their skill base a little higher. Nobody wants 
to get rid of anyone. They don't want to lay them off. There 
aren't enough people to go around as it is. So those dollars 
are also very difficult to use.
    But as far as higher education in the county, we do have a 
countywide career awareness program and the College Access 
Network, and that assists students to plan their futures. So 
that is a good thing to start lower, back in the grade school, 
in a high school situation. South Central Michigan Works goes 
into what would be considered a vo-tech center. We call it our 
Workforce Development and Technology Center. They help the 
students in the younger--the 9th, 10th graders, 11th graders, 
to know how to write a resume and the basic things that you 
need to get a job, how do you interview, what kind of a work 
ethic do you have to have to get a job.
    So those are the kinds of things that we are getting, soft 
skills training, because that is one of the major complaints 
employers have--you know, show up on time, do your job when you 
get here, the things that we would all probably take for 
granted, but it is a learned skill for a lot of our students 
coming up.
    Currently, the Economic Development Partnership, which is 
at my office, we are partnered with the intermediate school 
district and the Workforce Development Center, and we are 
placing students four days out of five into a local 
manufacturing situation. So they are being rotated through the 
different cells in that organization, and they are learning the 
different skills that you need and all kinds of things. They 
have to walk in, they have to punch in just like any other 
employee there. It is giving the employers a chance to observe 
the students also, and they are learning what are their 
aptitudes, what is their attitude, do they have a work ethic, 
are they team members, are they good problem solvers and all 
the other skill sets that they need for a good employee.
    The students--well, it has just really exceeded what we had 
hoped in the program. The students are immediately on payroll. 
They are being paid for the time that they are there, even 
though it is during school. They are 18 years old. I went 
through the plant with them last week, and there is a 
mentorship going on that was not a planned situation. The guys 
on the floor are hollering out to them, waving, whatever. It is 
a very good feeling to see that growth in these young people 
that otherwise would have been in a classroom, not really 
having the opportunity to get that real-world experience, and 
we would like to grow that opportunity for these students. We 
are looking for funding. We are applying for a Honda grant from 
the Honda Foundation to help grow those skills, that program.
    I am glad to say that all the guys that are involved in 
this program right now--it is just gentlemen--they are all 
going to be offered jobs at the end. This particular employer 
pays for your continuing education, so they will be able to get 
new apprenticeships. They will be able to have that paid for 
within three to five years. They will be making $60,000, 
$80,000, and they will have no student debt. So it is a very 
good win locally for our students, and we really need to keep 
as many of them as we possibly can.
    Chairwoman Foxx. Thank you, Ms. Smith.
    Ms. Smith. Thank you.
    Chairwoman Foxx. I appreciate it very much.
    Ms. Smith. My timer did not go off.
    Chairwoman Foxx. I know.
    Ms. Smith. I am sorry.
    [The statement of Ms. Smith follows:]

         Prepared Statement of Susan Smith, Executive Director,
           Economic Development Partnership, Hillsdale County

    My name is Susan Smith and I am the Executive Director of the 
Economic Development Partnership of Hillsdale County. I have been 
engaged with Economic Development and Workforce training since 1993.
    My work has always focused on meeting employer needs to foster 
their success and frequently that need was for a trained workforce. 
Much of this work is done in partnership with South Central Michigan 
Works!
    While I work with all employer sectors, my primary customers are 
our manufacturing/industrial businesses. This group of employers tends 
to pay well above minimum wage (usually double or more) which provides 
their employees with the discretionary income to purchase goods and 
services which stimulates other sectors and thus economic growth.
    A skilled workforce has become the primary concern in regards to 
retaining employers and expanding their operations as well as 
attracting new business. This is not new information, but the reaction 
speed to meet the skilled worker demand is ever increasing. The 
shortage of these available workers is a result of several factors from 
what I observe in Hillsdale County. We are a comparatively small County 
with a population of just over 46,000 citizens and probably a small 
sample of what has happened on a larger scale in larger communities.
    The recession/depression that sent our economy into a downward 
spiral 2008 through 2010 greatly affected our working class.
    The highly skilled workers left to live in a region where work was 
available
    Many of the workers who were offered an attractive company buy out 
or early retirement packages took them and left the workforce.
    For an even longer period of time our educational system funding 
has increasingly focused solely on curriculum for students who are 
moving on to a 4 year+ college/university education. Those choosing 
this route are to be commended for their ambitious goal setting and 
academic achievement.
    However, over a period of time this has greatly diminished or 
eliminated the educational tracks for students who want to pursue 
skilled trades which are what we are lacking today in our workforce. 
The programs that gave those students with mechanical or creative 
ability a path are gone. This too has created the skills gap that 
everyone is trying to fill today.
    Many companies I work with on a regular basis are turning contract 
work down because they do not have the workers they need to get product 
out the door to meet deadlines and the quality standards their 
customers demand.
    State workforce training dollars are no longer a part of the 
incentive package offered to companies who make multi-million dollar 
investments and need a trained workforce or to the company that just 
wants to take on new work and grow. The existing programs such as On-
The-Job training grants are only available to new hires who meet 
stringent criteria one of which includes basically living in poverty. 
Incumbent Worker Training (IWT) dollars are only available to employees 
currently in the workforce. The criteria attached to using this funding 
is that an employee must be facing lay-off or termination to qualify 
for training. This would probably have been useful in 2008 through 
2010, but today the need is to train our population of unemployed or 
those entering the workforce from high school in a hands-on career. As 
a community a part of the solution is growing our own workforce with 
the schools and working around the bureaucratic obstacles that have 
been created.
    To help remedy the situation the EDP and our Workforce Development 
Technology Center, which is a part of our Intermediate school district, 
began investigating the viability of a pilot program last fall which 
began at the onset of the last semester of the 2012-2013 school year. 
The CAD/Design instructor is also a mechanical engineer by profession 
which makes her a huge asset for our community. The department of 
education mandates that these students be in the Cad/Design classroom a 
minimum of one session a week. She has identified students in their 
senior year who want to get into a work environment to better 
understand the expectations and to see if the field of study they are 
considering is what they believed it is. The employers ROI is to 
observe the students attitude, aptitude, work ethics, team work, 
problem solving and other skill sets to see if they would make a good 
employee.
    The outcomes have far exceeded these initial goals of the program. 
Last week I had the opportunity to walk through the manufacturing 
facility with the students and Human Resource Manager.
    Observations:
    <bullet> The students are on payroll and must clock in like all 
other employees
    <bullet> As we walked through the plant, employees acknowledged the 
students with a wave, thumbs up, a hearty hello * * * Clearly there is 
a mentorship mentality that has grown naturally with the students as 
they have been rotating between all of the work cells and learning from 
the employees.
    <bullet> Students closely observe the safety rules and were quick 
to politely point out that I should be walking within the allowed 
parameters of the work space. When stopping at a work station, the 
students allowed for the operator to finish a sequence before 
interrupting to speak with him.
    <bullet> To the surprise and enthusiasm of the employer some 
students have requested additional work hours outside of the school 
day. There are even students who did not go on their SENIOR SPRING 
BREAK opting to stay home so they could work.
    <bullet> The Human Resource Manager is beyond impressed with each 
student and sees no reason why they would not be tendered a full time 
position after graduation. This employer also pays tuition 
reimbursement and offers apprenticeship opportunities. Within 2-3 years 
these students could be well on their way to a journeyman status making 
in excess of $60,000/yr.
    We are applying for a grant to the Honda Foundation to further this 
work as one of their funding priorities is for economic development 
projects that integrate students and workforce learning.
    We have a County-Wide Career Awareness Program and College Access 
Network in place to assist students plan their futures.
    This is all good news, but not nearly enough to begin filling the 
need quickly enough.
                                 ______
                                 
    Chairwoman Foxx. Mr. Fairbanks, I now recognize you for 5 
minutes.

 STATEMENT OF DAN FAIRBANKS, UAW INTERNATIONAL REPRESENTATIVE, 
        UAW-GM SKILL DEVELOPMENT AND TRAINING DEPARTMENT

    Mr. Fairbanks. Thank you. On behalf of International Union 
UAW President Bob King, and UAW Vice President in charge of the 
GM Department, Joe Ashton, we appreciate the opportunity to be 
here and speak. We do believe this to be a very important 
subject. Therefore, I do not want to miss anything, and 
contrary to how I normally like to do things, I am going to 
read my statement.
    The International Union, UAW Auto Workers welcomes the 
opportunity to submit comments to the Subcommittee on Higher 
Education and Workforce Training. The UAW is one of the largest 
and most diverse unions in North America, with members in 
virtually every sector of the economy. The UAW has more than 1 
million active and retired members in the United States, Canada 
and Puerto Rico. From our earliest days, the UAW has been a 
leader in the struggle to secure economic and social justice 
for all people. We are deeply committed to both higher 
education and job growth and development here in the United 
States.
    This testimony addresses successful union-employer training 
programs, ways in which unions find and train employees, the 
role of unions in job training, the effects of attacks on 
unions, and finally, the importance of serving on Workforce 
Investment Act boards and is being submitted solely on behalf 
of the UAW and not the joint programs.
    Successful union-employer training programs. At General 
Motors, the UAW joint partnership has developed many successful 
joint training programs. These were developed to ensure that 
our customers receive world-class products and services. 
Today's world customer demands quality. This not only pertains 
to industry, but it also pertains to the way citizens of this 
country view the quality of our government. They deserve the 
best that our government and GM products and services can 
produce.
    A partnership formed by the UAW and GM has produced that 
quality. Many joint training programs such as Quality Network/
General Motors Manufacturing System, GMS, ensure that all best 
practices from around the world are used to uniformly produce 
high-quality products. A GM vehicle produced in China uses the 
same system that a vehicle that is produced in Michigan uses. 
This was accomplished by a joint partnership between the UAW 
and GM and has spread worldwide. Such a uniform system is where 
we have to be in order to compete in a global economy.
    Other examples of successful union-employer training 
programs are our UAW-GM Apprenticeship Program, Work/Family 
Program, Preventive Maintenance, Safety Training, and our 
Suggestion Training, which helps reduce costs while increasing 
quality throughout the system.
    Ways in which unions find and train employees. Unions and 
the companies they represent also make apprenticeship programs 
available to both employees and people looking for employment. 
Trades have played an important part in all aspects of our 
labor history and continue to be vital to our workforce. We set 
the standard. Non-union trade programs are still far behind 
union programs in terms of quality and reliability. Joint 
training programs set up by the union and the employer offer 
the vast majority of training needed by employees and/or 
members in order to be effective in the workplace.
    Unions do an excellent job of recognizing potential. If you 
show the intuition and strive forward in a particular area, you 
will be noticed. Unions are always on the lookout for members 
striving to improve and are there to lend a helping hand and 
direction in achieving the skill sets needed to advance.
    Role of unions in job training. Unions have long been part 
of our nation's history in numerous ways, fighting for better 
pay, safer working conditions, health care and retirement 
benefits, education and civic participation. Unions have 
brought diverse voices together, and their struggles have 
elevated the working conditions, the standard of living, and 
the recognition of not just their members, but of all those who 
labor.
    Unions played a major role in ending sweatshops and the use 
of child labor, both of which were so common at the beginning 
of the 20th century. The International Ladies' Garment Workers' 
Union was one of the first unions to have a primarily female 
membership. And in the aftermath of the tragic Triangle 
Shirtwaist Factory fire in 1911, in which more than 100 mostly 
young immigrant women were killed, that union was at the 
forefront of reforming working conditions and pushing for 
comprehensive safety and workers' compensation laws.
    Unions are a vital part of our social fabric and economic 
future. Unions run the largest career training program in the 
United States outside of the military. Union apprenticeship 
programs generally partner with employers or industries to 
provide the kind of training that hard-wires excellence into 
workers and places them in good jobs that can support families. 
That is worth a lot when unemployment is stubbornly high and 
personal incomes are falling.
    [The statement of Mr. Fairbanks follows:]

Prepared Statement of Dan Fairbanks, UAW International Representative, 
            UAW-GM Skill Development and Training Department

    The International Union, United Auto Workers (UAW) welcomes the 
opportunity to submit comments to the Subcommittee on Higher Education 
and Workforce Training. The UAW is one of the largest and most diverse 
unions in North America, with members in virtually every sector of the 
economy. The UAW has more than one million active and retired members 
in the United States, Canada and Puerto Rico. From our earliest days, 
the UAW has been a leader in the struggle to secure economic and social 
justice for all people. We are deeply committed to both higher 
education and job growth and development here in the United States.
    This testimony addresses successful union-employer training 
programs, ways in which unions find and train employees, the role of 
unions in job training, the effects of attacks on unions, and finally, 
the importance of serving on Workforce Investment Act (WIA) boards and 
is being submitted solely on behalf of the UAW and not the joint 
programs.
Successful union-employer training programs
    At General Motors, the UAW-GM joint partnership has developed many 
successful joint training programs. These were developed to ensure that 
our customers receive world class products and services. Today's world 
customer demands quality. This not only pertains to industry, but also 
to view of citizens of this country towards the quality of our 
government. They deserve the best that our government and GM products 
and services can produce.
    A partnership formed by the UAW and GM has produced that quality. 
Many joint training programs i.e. Quality Network/General Motors 
Manufacturing System (GMS) ensure that all best practices from around 
the world are used to uniformly produce high quality products. A GM 
vehicle produced in China uses the same system that a vehicle in 
Michigan uses. This was accomplished by a joint partnership between the 
UAW and GM and has spread worldwide. Such a uniform system is where we 
have to be in order to compete in a global economy. Other examples of 
successful union-employer training programs are our UAW-GM 
Apprenticeship Training, Work/Family Program, Preventive Maintenance, 
Safety Training and Suggestion Training, which help reduce costs while 
increasing quality throughout the system.
Ways in Which Unions Find and Train Employees
    Unions and the companies they represent also make apprenticeship 
programs available to both employees and people looking for employment. 
Trades have played an important part in all aspects of labor history 
and continue to be vital to our workforce. We set the standard. Non-
union trade programs are still far behind union programs in terms of 
quality and reliability. Joint training programs set up by the union 
and the employer offer the vast majority of training needed by 
employees and/or members in order to be effective in the workplace.
    Unions do an excellent job of recognizing potential. If you show 
the intuition to strive forward in a particular area, you will be 
noticed. Unions are always on the lookout for members striving to 
improve and are there to lend a helping hand and direction in achieving 
the skill sets needed to advance.
Role of Unions in Job Training
    Unions have long been part of our nation's history in numerous 
ways, fighting for better pay, safer working conditions, health care 
and retirement benefits, education and civic participation. Unions have 
brought diverse voices together, and their struggles have elevated the 
working conditions, the standard of living and the recognition of not 
just their members, but of all those who labor.
    Unions played a major role in ending sweatshops and the use of 
child labor, both of which were so common at the beginning of the 20th 
century. The International Ladies' Garment Workers' Union, or ILGWU, 
was one of the first unions to have a primarily female membership. And 
in the aftermath of the tragic Triangle Shirtwaist Factory fire in 
1911, in which more than 100 mostly young immigrant women were killed, 
the ILGWU was at the forefront of reforming working conditions and 
pushing for comprehensive safety and workers' compensation laws.
    Unions are a vital part of our social fabric and economic future. 
Unions run the largest career training program in the United States 
outside of the military. Union apprenticeship programs generally 
partner with employers or industries to provide the kind of training 
that hard-wires excellence into workers and places them in good jobs 
that can support families. That's worth a lot when unemployment is 
stubbornly high and personal incomes are falling.
Effect of Attacks on Unions
    Unions are just normal folks--people who come together to improve 
their lives and their workplaces, because they recognize there's 
strength in numbers. The one thing that some of public does know is 
that union members, thanks to collective bargaining, have higher wages 
and better benefits. But union membership actually raises living and 
working standards for all working men and women--both union and non-
union.
    The truth is that unions work side by side with companies to expand 
the scope of their technological advancements and profit margins. The 
public hears about attacks on unions and becomes wary about investing 
or buying products or services from companies with union 
representation. Unfortunately this serves to be a self-fulfilling 
prophecy, which in turn affects the profit margin of these companies. 
That produces a negative effect on our production and service industry 
in our state and country.
    Pride in what one does or produces is important to everyone. The 
attacks on unions affect workers and manifest conflict within them. 
Union members know that they produce quality products and services in 
an economically efficient manner. But, if the public has a negative 
opinion of your work standards, it impacts the greater workforce in a 
non-positive way. Everyone takes pride in the fruits of their labor and 
human nature craves that others recognize the trueness and quality of 
that work, and it is detrimental when that is not recognized.
    When union membership rates are high, so is the share of income 
that goes to the middle class. When those rates fall, income inequality 
grows--the middle class shrinks and the 1% gets richer. Collective 
bargaining affects more than wages and benefits. Union teachers bargain 
for smaller class sizes. Union nurses bargain for better patient care.
    Working together, union members and their community allies also 
make up a powerful lobby for the common good. They've helped secure for 
us all the eight-hour day, job safety laws, overtime pay, Medicare and 
Social Security, civil rights protections, fair treatment for women and 
lesbian, gay, bisexual and transgender workers and much more.
    These are some of the reasons even people who don't fit the typical 
stereotypes of union members have recognized the power and importance 
of forming unions. Examples include carwash workers in LA, professional 
athletes, writers and directors for TV shows, just to name a few. Go to 
a movie and you're enjoying the work of one of America's most unionized 
industries, from the actors and camera crews to set designers.
    Effect of Taking Unions off Workforce Investment Act (WIA) Boards 
Recently, H.R. 803, the Supporting Knowledge and Investing in Lifelong 
Skills (SKILLS) Act passed the U.S. House of Representatives and we 
raised significant concerns about this legislation and the detrimental 
impact it would have on several programs that are vital to working 
families. The bill failed to take into account labor's leading role in 
workforce training. As previously stated, the labor movement is the 
largest workforce trainer of adults outside the U.S. military. 
Regrettably, the SKILLS Act categorically excludes labor participation 
in state and local workforce investment boards. The bill failed to take 
into account labor's leading role in workforce training and the 
discounts the value that workers bring to workforce investment boards.
    The purpose of the Workforce Investment Act, (WIA) is to provide 
workforce investment activities that increase the employment, retention 
and earnings of participants and increase occupational skill attainment 
by participants, which will improve the quality of the workplace, 
reduce welfare dependency and enhance the productivity and 
competitiveness of the economy. We only grow and improve when we work 
together. We may not agree all of the time, but through collaboration 
comes a new and better way of doing things. The effects of the board 
becoming a one way only philosophy will lend itself to limiting the 
success of the objectives.
    We also oppose giving governors the authority, without state 
legislative review, to consolidate the funding and administration of 
Workforce Investment Act and numerous other programs. Giving governors 
the discretion to decide who would receive services and what kind of 
services they receive does not encourage these decisions to be based on 
legitimate workforce needs but on political convenience and ideology. 
Handing such authority over to governors would likely create scenarios 
where workforce services would vary greatly from state to state as well 
as the funding levels of programs within that state, solely based on 
whoever holds political power.
    The SKILLS act would eliminate the Wagner-Peyser program and we are 
greatly concerned with the impact this will have on undermining the 
existing Unemployment Insurance (UI) system. The Wagner-Peyser staff 
conducts the UI ``work test,'' an eligibility requirement that requires 
UI claimants to be actively seeking work in order to receive UI 
benefits. H.R. 803 instead assigns responsibility for the work test and 
reemployment services for UI claimants to local workforce boards. The 
loss of accountability and state control resulting from this change 
would lead the unemployed to remain out of work longer, draw state and 
federal unemployment benefits for a longer period of time, and thereby 
undermine the state UI trust funds.
    In short, we believe that labor brings a strong voice to jobs 
training programs and our ability to have our voices heard helps 
America's workers. We are deeply committed to ensuring that ALL workers 
have the opportunity to find good paying jobs.
    In closing, thank you for the opportunity to submit testimony to 
the Committee on Education and Workforce, of the U.S. House of 
Representatives Subcommittee on Higher Education and Workforce.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Fairbanks. I appreciate 
very much your remarks.
    I now would like to recognize my colleague, since we are in 
his district, to begin the questioning of the panel members. 
Thank you all again very much.
    Mr. Walberg?
    Mr. Walberg. I thank the chairwoman for that opportunity.
    I shouldn't have looked at it. You could have left it going 
without timing. Sue, I don't know how you got away with that.
    Mr. Fairbanks, let me just ask you a question. Being a 
subcommittee chair myself for the Workforce Protections 
Subcommittee on the Education and Workforce Committee, which 
deals with those areas that I think you addressed to some 
degree, and the safety factors that have been built in, job 
security opportunities for the employees specifically, I think 
unions have provided some significant incentives to make sure 
that our workplaces are safe.
    But what I wanted to specifically ask you is what specific 
incentives are being used by the UAW to encourage ongoing 
worker development, not only those that are outside of the 
workforce now but those that are in, the incentives that 
encourage them to constantly upgrade their skills?
    Mr. Fairbanks. Well, quite frankly, our incentive is 
survival. With the auto industry coming out of, the Big Three 
coming out of what they just came out of, we have worked 
together with General Motors, Ford, Chrysler in instituting the 
programs that we already have in place, such as the ones I have 
mentioned, and also in doing research in new programs that we 
can jointly do together so the companies that we do work for 
can survive and prosper, because when they profit, everybody 
profits. So that is our incentive, to make sure that those 
companies do well. Therefore, when they do well, we do well.
    Mr. Walberg. Do the employees feel those incentives?
    Mr. Fairbanks. Oh, very much so.
    Mr. Walberg. And then I guess what I am asking is, is there 
any additional incentive other than survival that you encourage 
employees with to continue upgrading their skills?
    Mr. Fairbanks. Well, sure, definitely. We spoke briefly 
about our apprenticeship program. If you are a person that is 
coming in and working the assembly line, you are at one rate. 
One way to increase your pay is to get into the apprenticeship 
program and move up. There is also another way. If you are 
working the assembly line and you want to increase your pay and 
your level, you can become a team leader. To do that, there is 
training available to do that. It used to be just by seniority, 
but now it is a combination of seniority and skill levels.
    So there are incentives as far as monetary incentives to 
increase your training. Plus, there is that desire that is out 
there in everybody to increase your education. I think that is 
out there with everybody. Just because you went into an auto 
factory doesn't mean that went away.
    Mr. Walberg. Good, good.
    Ms. Dowler, I had the privilege of touring Fermi last week, 
in fact, and you are absolutely right. You just don't take a 
person off the street and have them attend to a nuclear power 
plant. It takes significant training. It's amazing the hours, 
the months of training the person has to go through.
    If you had to pass along advice to other institutions of 
higher education--I know you worked with Monroe Community 
College significantly on that area. But if you had to pass 
along advice within this state for higher education 
institutions about how they should work with other employers, 
what would that advice be?
    Ms. Dowler. My advice to other institutions would be to 
bring together your major employers, and minor employers. Small 
businesses may have to niche markets that they need to hear 
about as well. But bring together your major employers and have 
real consortium type conversations around what their needs are 
now and what their skill gap and talent needs may be in the 
future, and keep an ongoing conversation going.
    I think it is important for not only the institution to 
understand what the businesses and industries need, but it is 
important for the businesses and industries to understand what 
the universities are undergoing as well. It is really a 
partnership. It goes both ways. We are going through 
environmental regulations that are challenging us, and we have 
different things going on in our utility. It is important for 
our college to understand what some of our challenges are.
    So creating a partnership between your major industries 
that create real relationships I think starts to bridge that.
    Mr. Walberg. Ms. Smith, can you describe how employers or 
what employers are looking for in current college graduates?
    Ms. Smith. Current college graduates? Depending on what 
field they are coming out of college with, they want people who 
are willing to come on the job and work side-by-side with other 
people. They want them willing to continue to grow and to 
become part of a family. In Hillsdale, and I don't know if that 
is unique to Hillsdale, there is still pretty much a social 
contract with the employer and the employee. When they hire 
people and bring them in, they bring them in because they want 
them there and they want them to be a long-term employee for 
them. So they are just looking for people who have that will to 
continue learning and to do a good job.
    Mr. Walberg. I see my time has expired. I look forward to 
another opportunity.
    Chairwoman Foxx. Thank you very much.
    Ms. Dowler, to follow up a little bit on the last comments 
that you were making from Congressman Walberg, if you had to 
pass along advice to other institutions of higher education 
within the state about how they should work with other 
employers, what would you advise them to do?
    Ms. Dowler. Okay. So, in addition to asking them about what 
their needs are and what their skill gaps are, I think another 
key parameter would be, for the universities, is to share what 
they learn among other universities. So it is not enough for 
DTE to work with Monroe Community College and share our skill 
gaps and our needs with them, but it is important for Monroe 
Community College then to share that across their peers, their 
peer universities. So I think that is a critical element of the 
process, to partner across all of the elements, breadth and 
depth in sharing the workforce and talent requirements.
    Chairwoman Foxx. Thank you.
    Ms. Dowler. I guess the other thing I would also add is 
helping to integrate us into the curriculum build I think is 
also paramount. What are you teaching? Let us help you in that 
curriculum build I think is also paramount.
    Chairwoman Foxx. Thank you.
    Ms. Smith, would you talk about how you are working to 
recruit new businesses to Hillsdale County? How are you 
presenting what is going on here to new businesses who may be 
considering coming here?
    Ms. Smith. Okay. Actually, right now, the State of Michigan 
has an initiative, and they try to combine the different 
counties together. I am part of Region 9, which is Hillsdale, 
Lenawee, Livingston, Washtenaw, Monroe County, and Jackson. We 
are working together on marketing to talk about the different 
assets that we have. We are all very different communities and 
have different things to offer. So as a package, we can do just 
about anything anybody needs in this country or overseas in 
that region.
    So we are working as a large group of six counties to put 
together information and try to attract people and help them 
understand that Michigan is a great place to do business, and 
we have the skill, the talent, and we can transport things, we 
can engineer. We are good, and we are selling who we are.
    Chairwoman Foxx. Thank you very much.
    Ms. Dowler, you mentioned, and Ms. Smith mentioned also, 
the issue of soft skills. I picked up on that issue with you, 
Ms. Smith. But, Ms. Dowler, I appreciated the fact that you 
talk about skills, education and training, because they are 
distinct areas. I wonder if you could talk a little bit about 
the soft skills that you all are looking for. Again, Ms. Smith 
also referred to that.
    Ms. Dowler. Right. So, let me talk a little bit about some 
of the things that we do with universities to help kind of 
bring new employees in. We bring about 350 students, summer 
students and coops into our company every year to get them 
acclimated to the business world and the industry. Part of that 
process really gives them an opportunity to learn and grow, and 
that is their opportunity to learn and grow and our opportunity 
to groom them and coach them and teach them. We feel like as a 
corporation that is invested in our communities and in helping 
the students, we have an obligation to coach them, and we give 
them feedback throughout that process.
    So every year there are 250 to 300 students that come from 
across the universities in the State of Michigan that learn not 
only hard skills but soft skills. Like you mentioned, if they 
are not in on time, not dressing appropriately, how do you give 
a presentation effectively, right? All of those things, that 
gets to the soft skills piece. We also have in the hiring 
process behavior assessments and all those kinds of things 
which I won't get into. But I would really speak to the student 
coop program, which would get right connected through our 
recruiting process with the colleges that I think is a 
wonderful way to help coach, teach, and mentor young people 
into the business.
    Chairwoman Foxx. Congressman Walberg?
    Mr. Walberg. Thank you. Commissioner Lievens, let me ask 
you, in relationship to what the county government is doing in 
developing workforce, what efforts is the local government 
taking to help ensure the citizens of Monroe County are 
prepared for the shifts in the local economy? I think there 
have been a few in the past recent history.
    Mr. Lievens. One thing the county is doing through its 
planning department is looking for one-stop shops to bring 
together employers with educational institutions. That way, 
folks don't have to look around to afford their resources. 
Interestingly enough, one of the recent reports made on behalf 
of our county planning department was just this issue that is 
coming up time and again in our field hearing regarding the 
soft skills, and that was something of a surprise to me a 
couple of years ago, because you have that expectation out of 
your educational institution. You are ready to find your 
position in whatever employment sector you went to school for. 
But beyond the basic writing, math and reading skills, students 
need to acquire the skills related to the work ethic, financial 
literacy, resume writing, application filing, problem solving, 
teamwork, flexibility and communication skills.
    I meet a number of folks that have applied for jobs that 
afterward, in speaking with them, they had the skills, they had 
the talents and ability, but they need to translate those into 
a resume, into the creativity of looking for that application. 
And then we hear about being timely, what is appropriate to 
wear. One of the things the county is doing is putting those 
resources together and feeding that to the education sector, to 
the employers and the like.
    Mr. Walberg. Why do you believe it is absolutely necessary 
to have a partnership between employers and post-secondary 
institutions?
    Mr. Lievens. To help connect those. There is a lot of 
discussion out there about synergy. It is about bringing 
together your partners to open those lines of communication 
because no man is an island. We are all in this together.
    Mr. Walberg. Can the government get in the way of that?
    Mr. Lievens. Absolutely.
    Mr. Walberg. How?
    Mr. Lievens. By creating too much regulation, too much red 
tape, and that was one of the things mentioned here before. 
Government should be a partner, but it shouldn't be the 
employer.
    Mr. Walberg. Does industry come to you and tell you the 
hard, cold facts about maybe some of those challenges that are 
in place through no intention necessarily but is actually 
taking place?
    Mr. Lievens. Certainly, through some of the things, 
especially here in the county, we need to be a little bit more 
open-minded and creative about is attracting businesses by 
eliminating certain land-use restrictions and the rest, to 
promote an open business environment.
    Mr. Walberg. I would ask you the same question, Ms. Smith. 
Since you work kind of in the center land between the employer 
and the government agency, what challenges do you face with the 
government agency there in Hillsdale County, which has been hit 
significantly with the downturn in the economy?
    Ms. Smith. Yes. I mean, we were at 18 percent in 2009, 
unemployment. So it was devastating.
    Mr. Walberg. You are still at about 11 percent, aren't you?
    Ms. Smith. We are at 10, 10.1, I think, right now. But that 
is still outrageously high unemployment.
    You know, it is just programs that go into effect need to 
be a little more flexible for our employers. There can't be a 
lot of restrictions as far as if the person makes a living 
wage, they can't get any assistance and training. We are trying 
very diligently to bring our students from the schools and 
retain them locally, so we need to be able to train them 
locally. We work with the Academy for Manufacturing Careers. We 
are still a very heavily manufacturing community, as well as 
agricultural. But sometimes it is just very hard to use the 
dollars that are available because of the criteria attached to 
them, and I understand the need to track so that there is not 
abuse of money. That has happened, obviously. But there is a 
medium that we really need to hit.
    Mr. Walberg. Right, right.
    Ms. Dowler, again, going directly to you in the final few 
seconds that I have here, do you find your employees taking 
advantage of the job training programs that are out there that 
you introduce them to? Are they aggressive in taking advantage 
of that? Are they seeking it, or are they being pushed?
    Ms. Dowler. It is interesting. I actually asked for some 
data to bring in here relative to educational reimbursement. We 
have a big educational reimbursement program in our company. I 
did not get the data quick enough to bring in here, but what I 
would tell you is every semester, every year employees take 
advantage of community college and higher education to get 
associate's, bachelor's, master's degrees throughout the 
company so they can advance themselves and advance their 
careers to make themselves better and to make the corporation 
better and stronger. So, yes, absolutely.
    Mr. Walberg. That is encouraging.
    Madam Chairman, it is more discouraging to know the 
disincentives we give in the government bureaucracy, and your 
bill goes a long way in addressing the redundancies, the 
burdens of having multiple layers of overlapping job-training 
programs that really are making it more difficult for Ms. Smith 
and Ms. Dowler in getting people into a place of employment.
    Chairwoman Foxx. Thank you, Mr. Walberg. I wasn't going to 
be self-serving too much in talking about bringing up what Ms. 
Smith brought up, but I do appreciate your mentioning the 
issue. We call them silos, where money is appropriated but 
people aren't able to take advantage of it even though they 
need it because they don't fit the exact criteria.
    I think we have some information on the SKILLS Act here, if 
people are interested in doing that. Thank you.
    I would like to ask Mr. Lievens if you would discuss a 
little bit the role of the local Workforce Investment Boards 
and how they play a role in job placement and job development 
here.
    Mr. Lievens. The county currently has several different 
investment boards. We have Michigan Works. That is one 
organization that helps pool together local talent and connect 
those with the employers by providing a resume bank, helping to 
train the soft skills. So that is one area that the county is 
growing that I see a lot of good results from.
    I think another thing to touch on, something that was 
mentioned earlier, that Michigan is known for its 
manufacturing, but I see that there are layers in 
manufacturing. There is manufacturing, and there is advanced 
manufacturing.
    No one is asking for dollars to help develop the buggy whip 
industry. I think of that as manufacturing that has since 
passed its day. But we have new advanced manufacturing that is 
really shooting the moon. We have Ben Tower doing advanced 
welding to take advantage of some of these new green 
industries, and that is something that I think dollars should 
be targeted to these emerging sectors of the economy and 
retaining the existing employers. I know the college has 
recently embarked on some grant funding for incubators. I 
support that, and that is necessary, but we need to really look 
at who is here and doing well, and that is one of the things 
the county is keen on and has documented and has offered as a 
resource for people to look into.
    Chairwoman Foxx. Thank you very much.
    I wanted to ask Ms. Smith, can you talk a little bit more--
again, you mentioned in your comments and in a question, a 
follow-up question that Mr. Walberg asked, but I don't think it 
is too much to emphasize again, what is it that employers are 
looking for in the current college graduates that are coming 
out? Because I think the audience here needs to hear that over 
and over again, and hopefully the audience of college folks who 
are here also. Talk a little bit more, if you would, about the 
kind of attributes that a college graduate needs to have these 
days.
    Ms. Smith. Well, I could give you a really good example. I 
was at the governor's economic development conference in 
Detroit, and there was a young lady there from Hillsdale 
College, and she was a marketing student. They had 20 students 
that were brought in to kind of sell themselves because there 
were a lot of employers there that would give them an 
opportunity. And this young lady was outstanding in several 
ways, and I think that is why one of the companies from 
Hillsdale picked her up. Not picked her up, tried to engage 
with her.
    Mr. Walberg. Picked her out.
    Ms. Smith. Yes. She was very confident in her presentation. 
She carried herself very well. She was very articulate. She was 
very driven and not afraid to talk about the fact that she has 
a very good skill set. They are looking for someone in the 
marketing arena. So she spent one evening looking at who the 
company was and what they were doing, because when I talked to 
her, I understood after talking to her that she was probably a 
very good match for one of our Hillsdale companies that was 
there.
    So when you talk to young people and they have that, they 
make that connection, they look you in the eye, they are just 
there in the present tense, it makes a big impression with 
employers because they want somebody who is not going to come 
in and run the company but who is going to be able to hold 
their own and do a good job for them.
    Chairwoman Foxx. So she not only had the skills, but she 
could show that she had the skills.
    Ms. Smith. Yes, yes.
    Chairwoman Foxx. Okay. Thank you very much.
    Mr. Walberg?
    Mr. Walberg. Boy, I like these field hearings. More 
questions to finish off.
    Let me go back. Ms. Dowler, you made an interesting 
statement about getting in on the ground floor, working with 
community colleges or educational institutions on the 
curriculum build. That's a term that I think expresses an awful 
lot that I had not heard before, curriculum build. In the case 
of Monroe County Community College, how do you work with them 
to ensure that they continue to provide high-skilled graduates 
that meet your hiring needs in context with that curriculum 
build?
    Ms. Dowler. So let me speak about just a couple of 
examples. Our nuclear engineering technology program that 
ultimately ends up with an applied sciences associate's degree 
has several of the adjunct professors that are also employees 
of DTE Energy. So the DTE Energy employees work at the plant, 
the nuclear division, every single day. They are also adjunct 
professors that teach several classes within the nuclear 
engineering technology program. So clearly, they are very, very 
involved in the curriculum, teaching the curriculum. They get 
to know the students. They get to know the capabilities of the 
students.
    I also mentioned that coop program in the summer student 
program. Some of those very students that those professors 
teach end up coming in and being summer students at the nuclear 
power plant so they get some of that real-life experience at 
the power plant. So that would be an example, that would be a 
real, full-cycle example of how they are involved in that 
curriculum. I could give other examples, but that is probably 
the most succinct example. That is an accredited program within 
the NEI.
    Mr. Walberg. But as you say that, that is a comprehensive 
working relationship. How many schools and universities and 
training centers can you do that with?
    Ms. Dowler. So, I mean, we have adjunct professors on staff 
at Oakland Community College. We have several relationships 
with several colleges across the state. I can't say that it is 
every college, but several colleges.
    Mr. Walberg. Where it makes sense.
    Ms. Dowler. Where it makes sense, right. Ferris State, for 
example, we have great employment up in that area, so we have 
great partnership with Ferris State as an example.
    Mr. Walberg. Thank you.
    Mr. Fairbanks, let me ask you if you could just give us 
some insight on what challenge the UAW faces with what is seen 
as government disincentives to producing job opportunities, to 
assisting the UAW in the training programs, in providing the 
jobs to train for.
    Mr. Fairbanks. Could you please explain a little bit 
further disincentives?
    Mr. Walberg. Well, I guess what you perceive as 
disincentives to the UAW membership growing, but more 
specifically jobs, so that your union employees or membership 
could have employment in a growing way, in a growing economy 
here in Michigan specifically. But are there any government 
disincentives, red tape, bureaucratic overhead, whatever, that 
gives you acid indigestion as you attempt to provide jobs and 
train workers in those jobs?
    Mr. Fairbanks. To speak to that, offhand I really don't see 
any disincentives as far as education. This was spoken about 
earlier, about programs within companies to pay for employees 
going back to school. We have a tuition assistance program that 
the UAW and GM have put together. That does run into millions 
of dollars a year, into that program.
    Back to what you were saying, we do believe there needs to 
be some levels looked upon as far as how these funds are 
allocated. In other words, we do not agree that funds are 
allocated directly to the governor of the state, and the 
governor of the state says, okay, we need these funds here, we 
need these funds here, we think that is the best place to go.
    We do believe these boards serve a very important purpose. 
They are the ones closest to what is happening. We agree 
totally that they need to be there. What we are trying to 
emphasize is you need a diverse group of people on there using 
their joint partnerships with companies. Like I said before, 
they are one of the largest entities in being able to educate 
their employees and their members. Therefore, we do believe 
that the workers need a voice on those boards, and that is the 
main emphasis that we wanted to come out with is let's keep the 
power with these boards. They know what they are doing. They 
are right there on the front lines. Let's keep it there.
    Mr. Walberg. Thank you.
    Chairwoman Foxx. Well, thank you all very much for coming 
today and for the valuable testimony that you have given us. 
Again, I want to thank you for taking time out of your 
schedules to be here.
    We're going to bring up the second panel now, so we will 
excuse you with our deep appreciation.
    Now you all have had a chance to see how the first panel 
did, right? It is my pleasure now to introduce our 
distinguished second panel of witnesses.
    Dr. David Nixon, currently serving his 10th year as 
President of Monroe County Community College. Prior to coming 
to MCCC, he served as Executive Dean of Iowa Lakes Community 
College in Estherville, Iowa, where he served as the Chief 
Administrative Officer of the Emmetsburg campus.
    Ms. Sherry Betz currently serves as the Southeast Regional 
Director of the College for Professional Studies for Siena 
Heights University. While at Siena Heights, Ms. Betz has had 
the opportunity to present at the Trends in Occupational 
Studies conference, where she discussed the needs for 
articulation agreements and how institutions benefit from these 
types of partnerships.
    Dr. Michelle Shields serves as a career coach, as well as 
the Workforce Development Director for Jackson Community 
College. Dr. Shields handles career coaching for students, sets 
up internships with local employers, and handles employers' 
requests to match qualified graduates with their needs.
    Mr. Douglas Levy is the Director of Financial Aid at Macomb 
Community College, Michigan's largest community college. Prior 
to joining Macomb in early 2011, Mr. Levy spent the prior 21 
years in various higher education leadership positions at the 
University of Michigan.
    Again, let me briefly explain our lighting system. You will 
each have 5 minutes to present your testimony. When you begin, 
the light in front of you will turn green. When 1 minute is 
left, the light will turn yellow, and when your time has 
expired the light will turn red, at which point I would ask 
that you wrap up your remarks as best as you can. After 
everyone has testified, members will each have 5 minutes to ask 
questions of the panel.
    Now I will recognize Dr. David Nixon for 5 minutes.

            STATEMENT OF DAVID E. NIXON, PRESIDENT,
                MONROE COUNTY COMMUNITY COLLEGE

    Mr. Nixon. Thank you very much. Thank you, Chairwoman Foxx. 
I wanted first of all to welcome you on behalf of our faculty 
and our staff and our elected trustees, and I think at least 
one of our elected trustees has been here this morning to 
welcome you. I mention that because they are all elected. They 
get no pay for that job. They are great trustees because they 
are involved in the community as well, and you will see why 
that is important.
    As the President of Monroe County Community College, I 
would like to point out two of our major supporters here in 
this community that were here long before yours truly, and that 
is La-Z-Boy Furniture and Monroe Shock Absorbers. So you can 
see why manufacturing is in our DNA. We always like to say when 
we are visiting other parts of the country, we are the county 
that rocks, La-Z-Boy, and shocks, Monroe Shock Absorbers. But 
those people, or at least the people that came with Monroe 
Shock Absorbers, are still contributing to this community in 
many ways, because our biggest challenge is the value of higher 
education.
    This has been a community where it was easy to get a job at 
age 16. If you could get a driver's license, you could probably 
get a job. Times have changed, and I am really impressed by the 
witnesses that have come before me with the comments that they 
have made.
    This college is 50 years old, still one of the lowest 
tuition rates in the region. It is mission driven, and our 
mission is enriching lives through higher education. Monroe 
County Community College is nationally accredited in higher 
education, and our growth in enrollment over the past several 
years came to us because of the Great Recession, for the most 
part, but because a lot of the students wanted to improve their 
lives.
    Living within our means has become a practice because the 
state's funds have dwindled and, as you know, we rely a great 
deal on the state funds here in the State of Michigan. But the 
truth be known is that the tuition, the money the students pay 
for their tuition is a greater portion of our annual budget 
than our appropriations from the State of Michigan. That is 
just the way the formula works out.
    So in that regard, the largest revenues for the college is 
the local taxpayer. At one time, 60 percent of our annual 
budget came from the local taxpayers, but in recent times that 
has dwindled to a little less than 50 percent. So in learning 
how to live within our means, we have found the value of 
partnering with private partnerships and others to be able to 
sustain the college and offer higher education.
    By the way, we have 9,000 students annually; 4,500 of those 
are credit students in certificate programs. The rest of 
those--and about the average age of our student is 25, with 
about a third of our students ranging in age up to 30.
    More than 70 percent of our students work outside the 
college. So we have a lot of students that are going to college 
and working, some of them working full time. Half of the 
students qualify for some kind of financial aid. Thirty-seven 
percent of the college students here receive Pell Grants 
totaling $6 million this last year. We are a great advocate of 
Pell Grants. We don't like some of the things that happen when 
some of the students bail out after they get the money, and we 
may get a chance to talk about that later.
    Our default rate, by the way, last year was 2.2 percent, 
which isn't bad, but we have to write a check for $240,000.
    Of the entire student population, 43 percent of the 
students receive some type of Title IV financial aid, either 
the Pell, the Stafford loans, or work study. But I need to 
point out that because of our involvement in the community and 
our private partners, this college generated $500,000 in 
scholarships, our local scholarships, last year to supplement 
their education.
    So if we are working on those limited resources, how do we 
move ahead with these programs we have discussed and some of 
the witnesses discussed earlier? How do we train the 21st 
century workforce? It is the combination of public/private 
dollars. The likes of a $17 million Career Technology Center 
currently in construction on the campus you may have seen as 
you came in this morning, that is all about high-skilled 
workers for high-paid jobs.
    Nuclear tech is one of the premiere programs, and if it had 
not been for DTE Energy and that partnership, it would not have 
happened.
    In addition, we partnered with a community college in Ohio 
at the early start of that to be able to deliver those 
technical programs.
    So it was combining curriculum with curriculum experts with 
what we call the content experts. Those are the professionals 
at the nuclear power plant that are on our campus, in our labs, 
helping us teach those students.
    We have done the same thing with wind construction, 3-D 
computer-assisted drafting and design, robotics, auto 
engineering, auto tech. But probably the best example of a 
partnership with the federal government that benefitted this 
entire area was the successful competition for a Department of 
Labor grant for $1.7 million to establish a welding center of 
expertise on this campus.
    Five years ago we were charged with turning out 240 
certified welders. Well, when the program concluded--by the 
way, we haven't concluded. We are still teaching welding. But 
when the grant program ended, we had actually certified 260 
welders, and as we move on we will continue to certify more 
because there are 100 jobs open yet today in welding within 
this driving distance.
    Similarly, 10 years ago there was a need for an 
Instructional Center for Business Training and Performing Arts. 
That was 10 years ago. And how did we do that? With public/
private dollars, a capital campaign that created a $12 million 
La-Z-Boy Center, as you may have seen when you came in.
    Still, we have a shortage of welders. We still have the 
shortage of welders. We have a shortage of nuclear techs, as 
you heard from a witness previously, Ms. Dowler, by the way who 
is not only on our foundation at the college but is one of our 
experts. We have 200 professionals from the communities that 
belong to our advisory committees. They are the ones that meet 
regularly on campus and tell us what kind of curriculum that we 
need to have. We could not operate without them.
    Our other partners, some of whom will be represented here 
in the witnesses, we have private colleges or private college 
partners on our campus producing 4-year degrees for our 
students who can live here in Monroe County and earn a 4-year 
degree, Siena Heights, and with that opportunity or that 
partnership Siena Heights not only has experts on campus but 
they also allow the community college students to continue in 
the third year of that program at our community college 
courses.
    The Eastern Michigan University is on our campus. They are 
providing a BSN in nursing. Nursing is one of our strongest 
programs. We have a number of developments in that regard, but 
I needed to say that it was EMU that came to this campus and 
said that they would be able to deliver the 4-year degree in 
nursing.
    I am going to conclude my testimony, Chairwoman Foxx, but I 
wanted to mention before I conclude that the students that you 
saw when you came in this morning, that is another wonderful 
program, a federal program, the Upward Bound program, part of a 
trio of programs. We were renewed, and those of you in Congress 
know the battle that went on for the renewal of that program. 
We were renewed for not only another five years at the high 
school in this community, but we were able to add a second high 
school. These are students who were at risk of never going to 
college. They are first-generation students, and they come to 
this college and participate in our activities in tutoring as a 
freshman in high school.
    So thank you for the time, and I will leave a copy of more 
details in my script. Thank you.
    [The statement of Mr. Nixon follows:]

        Prepared Statement of David E. Nixon, Ed.D., President,
                    Monroe County Community College

    Good morning Chairwoman Foxx, and members of the Subcommittee: I am 
David E. Nixon. I am the president of Monroe County Community College, 
and I would first like to welcome you to the campus in Monroe County, 
Michigan (Pop >200,000); the home of La-Z-Boy Furniture and Monroe 
Shock Absorbers. Manufacturing is in our DNA.
    <bullet> The college is 50 years old and still affordable * * * 
with one of the lowest tuition rates in the region.
    <bullet> Monroe County Community College is a nationally accredited 
institution of Higher Education with Record growth in enrollment until 
last year when enrollment declined 5-to-8% across the state.
    <bullet> Funding challenges existed even with record enrollment 
which produces less than 30% of our annual budget. State appropriations 
are less than the tuition (12%)--challenged by dwindling state funding. 
Largest revenue stream for MCCC is a local tax for this district 
(originally 60% reduced in the Recession to less than 50%)
    Regardless the faculty/staff and Trustees engaged in public/private 
partnerships to provide quality learning opportunities through the use 
of a variety of strategies.
    <bullet> 9,000 students a year (4500 students in credit programs) 
and the remaining in certificate training programs associated with 
workforce development. The average age of our students is 25 which 
means the larger group of students is over age 21. A third of students 
range in age from 21 to 30. Others range up to age 50, but it is not 
uncommon for graduates at age 60.
    <bullet> More than 70% students work outside the college and attend 
school part time. Only 36% attend classes' full time.
    <bullet> Half of them qualify for some kind of financial aid 
(federal, state, and institutional funds) approximately 37% of MCCC 
students receive Pell Grants. Of the entire student population 43% of 
our students receive some type of Title IV financial aid (Pell, 
Stafford Loans, and Work Study)
    HOW TO POWER THE 21st CENTURY WORKFORCE? Partnerships * * * Public/
private dollars * * * with the likes of a $17 million dollar Career 
Technology Center producing high skilled workers for high skilled jobs. 
Opening this fall, state-of-the-art labs for nuclear tech, Solar, Wind, 
Construction, 3-D computer assisted drafting and design, computerized 
CNC operation, metrology (non-destruct-testing), Robotics, auto 
engineering and auto technicians, in addition to the celebrated Welding 
Center for Expertise all under one roof--serving as a proud example of 
public/private partnerships. The local capital campaign that has 
already resulted in an 86% commitment which includes the state, the 
college, and private donations from small and large businesses. Opens 
in August.
    Similarly, 10 years ago, a similar Public/Private collaboration 
resulted in the construction of a $12 million Instruction Center for 
Business Training and Performing arts--again a mix of public/private 
dollars with the largest single gift of $2 million from La-Z-Boy Inc. 
for the naming rights. The state's investment leverages private 
investors. The community wins.
    Why all of this activity? It is still all about jobs. And it's 
about jobs that keep students here in the county to make their homes 
and raise families.
    It's well-known that there is a worker shortage in Michigan, 
especially a shortage of those who possess high skills for high paid 
jobs--documented by the Workforce Intelligence Network (WIN)---A 
consortium of eight community colleges in southeast Michigan in a 
collaboration with seven Michigan Works Agencies.
    A shortage of welders MCCC COMPETED FOR a $1.7 million Department 
of Labor grant for training/certifying 240 welders over a five-year 
period. At the end of the five year, 260 welders had been certified and 
the current need is for 100 more. The grant funded scholarships 
directly to MCCC without a cumbersome pass-through funding system as 
with other workforce training funds. The Welding student tuition was 
funded direct from the DOL grant managed by the college allowing 
certificate short term certificate training. There are still 100 job 
openings for high skilled welders.
    A shortage of Nuclear Techs led to the creation of a nuclear tech 
program to serve the needs of DTE Energy, the largest employer in the 
county operates one nuclear plant * * * in the application for an 
additional nuclear plant right next to the current plant. MCCC 
responded with a Nuclear Tech training program in 5 YRS ago graduating 
more than 50 technicians completing since then.
    Where do we get our expert advice?
    ADVISORY COMMITTEES * * * More than 200 community members and 
``content experts'' working professionals from the jobs-community meet 
every semester or more with faculty leadership. Those ``content 
experts'' help us keep those programs in ``state-of-the-art'' delivery 
mode AND to solicit partnerships for student scholarships or technology 
upgrades.
    Meanwhile four-year degree ``partnerships'' on campus offer 
baccalaureate degree opportunities in nursing, business, accounting, 
and early childhood education.
    <bullet> Sienna Heights University (four year private) delivers 
classes on our campus--allows MCCC students to take Sienna Heights 
classes on campus at MCCC's lower tuition rates.
    <bullet> Eastern Michigan University offers a Bachelor of Science 
in Nursing on campus--attracting graduates from MCCC's high quality 
nursing program.
    <bullet> The most unique public/private partnership developed when 
MCCC and a local bank led the development of an outreach project to 
offer GED preparation for hundreds of county residents who are barred 
from higher education opportunities at the college for lack of a high 
school diploma. The bank provided the facilities and along with eight 
other community partners has managed to keep the facility open.
    In conclusion? Partnerships are driving ``higher education 
opportunities'' at Monroe County Community College with the ``focus'' 
on student outcomes. What improvements could be made?--a more direct, 
less bureaucratized financial aid pathway to students like DOL Welding 
Grant.
    What's needed? * * * policies that give institutions more 
flexibility counseling and safeguards to ensure students understand 
their loan obligations, are academically prepared, and are able to keep 
loan borrowing in check. And to prevent ``over borrowing.'' We are 
prohibited from requiring additional loan counseling for students who 
appear to be over-borrowing or who are most at risk of defaulting.
    I appreciate this opportunity to speak before members of Chairwoman 
Fox' Subcommittee on behalf of students whose lives can be enriched by 
gaining the high skills for high pay jobs.
    As a result, as Jim Clifton points out in The Coming Jobs War 
(2011), it's all about'' making stuff'' and the more we make/
manufacture, the stronger the country through gross domestic product. 
MCCC's goal is to provide opportunities for our students to learn the 
skills needed for the high paying jobs.
    Thank you for allowing me the time on behalf of Monroe County 
Community College.

                         ADDITIONAL INFORMATION

    Pell grant funding is essential for qualified students--but better 
control can be maintained if community colleges are allowed to 
participating in the development of new guidelines. (more detailed 
suggested at the end of this report).
    There are numerous NON CEDIT TYPE WORK RELEATED certificate type 
accelerated programs, typically a few weeks in length (the shorter than 
one-or-two year programs) the kind that lead to some of the high paid 
jobs ``sooner than later.'' Many do not qualify for workforce programs. 
One of them was a nine-week certificate program for Ophthalmic 
Assistants (entry level for Ophthalmologists). Students attended full 
time with few scholarships. More than 50 students have been placed.
    The shortage of high skilled machinists in Michigan is the worst in 
10 years.
    The biggest bang for the buck is the funding directed to the 
students like the Welding Grant or GI Bill, rather than funding 
distribution agencies.
    A barrier for many students are requirements that they need to 
attend school full time to get the tuition assistance as was the case 
in the recent Michigan Works administered program called No Worker Left 
Behind--or those Veterans on the GI Bill. Some have been denied because 
the need for earning a living while going to school prevents them from 
leaving current jobs * * * even though they may be low paid-low skill 
jobs. Our goal is to help them gain higher skills for higher pay.
    Based on our experience here at Monroe County Community College and 
visiting with our enrollment managers who process those students--my 
recommendation to the Subcommittee in re-writing Higher Education Act 
legislation is find ways to award students funding that accommodates 
their class schedule rather than tuition tied to a ``semester'' 
schedule.
    Many need to work part time to support their family while enrolled 
in the Career Programs. The GI VRAP program requires full-time 
attendance for 10 month which challenges students who need to work 
while attending school.
    The demands for high skills prompted a partnership with local high 
schools--reaching down into the high schools--bringing the high school 
students to campus for combined college credit and high school credit--
supported by tax dollars already committed by the state for their high 
school education. (known as dual enrollment) or (early college). The 
talent for tomorrow--is in high school today.

                      MORE ON PELL GRANT CONTROLS

    More detailed suggestions about Pell Control come from MCCC's 
Director of Financial Aid Valerie Culler who provided the following 
that the subcommittee members may wish to consider.
    The primary control that financial aid administrators have been 
advocating for years for the federal government to put into place is a 
national tracking system for Satisfactory Academic Progress (SAP). One 
of the requirements for financial aid offices in administering Title IV 
funds is the monitoring of students' academic progress. All schools are 
required to monitor the same standards for Title IV aid:
    <bullet> Students must maintain a minimum cumulative GPA of 2.0
    <bullet> Students must complete 67% of their overall attempted 
credit hours
    <bullet> Students will lose Title IV aid eligibility once they have 
attempted more than 150% of the credits required to complete their 
program of study
    All of these SAP standards are in place to make sure that students 
who are receiving Title IV aid are on pace to complete a degree program 
timely. While all schools are required to monitor the same standards, 
the determination of a student's eligibility for Title IV aid is based 
only on the student's SAP status at the school the student is currently 
attending. The student's SAP status at a school the student previously 
attended is not is a factor. What happens now is that when a student is 
denied Title IV aid at one community college due to failing to meet SAP 
standards, the student can transfer to another community college and 
begin with a ``clean slate'' and receive federal aid again. For 
example, if a student has failed classes at the University of Toledo 
and Owens Community College and no longer qualifies to receive Title IV 
aid at those schools, I cannot deny that student Title IV aid at MCCC 
based on his/her SAP status at UT or OCC. This allows students to 
``swirl'' from community college to community college and continue to 
receive Title IV aid, even when the student has not demonstrated 
academic progress at any of the schools.
    The U.S. Department of Education already has systems in place that 
track students' entire history of Title IV aid usage. While there would 
be some programming involved in creating a national tracking system for 
Satisfactory Academic Progress, I'm sure much of the functionality 
already exists, and because schools are already held to monitoring the 
same standards for SAP for Title IV eligibility, the implementation of 
a national tracking system would not be that much of an administrative 
burden on financial aid offices.
    While the U.S. Department of Education has taken a step for 2013/14 
by flagging students who have receive Pell Grant funds at three or more 
institutions within the past two or three years, this practice still 
gives students an opportunity to ``jump'' between multiple schools and 
receive a significant amount of Title IV aid before they are caught. A 
national tracking system for SAP would allow us to catch these students 
much earlier and hence lessen the abuse of Title IV aid. It is also 
important to keep in mind that for students who do not meet SAP 
standards at a school, the regulations do allow the students to appeal 
to the Financial Aid Office and document that the student did not meet 
SAP standards due to extenuating circumstances, which have since been 
resolved, so there is already a process within the SAP monitoring that 
gives students who legitimately had serious hardships during a semester 
a second chance.
    Other controls that could reduce waste/fraud:
    1. Give financial aid offices more authority to limit loan 
borrowing. We see students who transfer to MCCC and have already 
borrowed large amounts of loans at other schools, and we have no 
authority to deny them their maximum loan eligibility for the term, 
even when they have a Pell Grant that pays their costs in full.
    2. The Department of Education needs to give better guidance on 
whether or not schools are allowed to divide Title IV aid payments up 
in multiple disbursements. Right now we get a mixed message from the 
Department of Ed. We've been told that it is okay to do this for 
students in distance education classes, but at the same time schools 
are still held to the requirement of giving students access to their 
Title IV refunds early in the semester, which paying out aid in 
multiple disbursement could prohibit. Hence, financial aid 
administrators are reluctant to move to a practice of multiple 
disbursements, because of concerns about remaining in compliance with 
the rules about giving students access to their funds timely.
    3. Put more funding into the Work Study program. It is critical to 
fund the Pell Grant program, but I think Federal Work Study is a great 
source of self-help financial aid that is often overlooked. Students 
earn this aid and develop skills that give them an edge in the job 
market when they leave school.
    With my written testimony, I am attaching documents that further 
explain the Workforce Intelligence Network (WIN).
    ``Employers say talent is their number one need to grow or expand 
their businesses,'' said Lisa Katz, WIN Executive Director, ``as such, 
we know that the key to economic develop is talent development, 
including fostering creativity and education of Michigan's youth.''
    A testament to that enthusiasm and commitment is evidenced by the 
construction currently underway on campus for a new Career Technology 
Center that will transform Monroe County's workforce through hands-on 
instruction and access to cutting-edge equipment and technology.
    But ``they must be good jobs,'' says Jobs Wars author Jim Clifton, 
CEO of the prominent Gallup polling giant * * * who suggests ``good'' 
jobs are being the new currency for world leaders. And he challenges us 
in higher education that ``students want education that results in GOOD 
jobs'' and that is evident right here in Michigan as automakers and 
others are tooling-up for the new economy--with high energy workplaces, 
requiring high skilled hi paid workers.
    WIN has learned that the job demand in the areas of information 
technology, advanced manufacturing and healthcare, as evidence by the 
number of employer job postings, has been substantial to the point 
where employers are significantly challenged in filling positions. 
Monroe County Community College is addressing the skills shortage in a 
number of ways. For Monroe County Community College, the advantage of 
partnering with the Workforce Intelligence Network is having access to 
sophisticated data gathering research software that looks at the 
occupational demand and the skills, educational credentials, and 
experience needed to work in those occupations. While much of our 
conversation has been focused on manufacturing, the current list of 
high-demand jobs include radio mechanics, vet techs, diagnostic 
stenographers, physical therapists, med equipment repairs, 
cardiovascular techs, and environmental techs. But the truth remains 
there is an extreme machinist shortage--the most extreme in ten years 
in southeast Michigan.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Dr. Nixon. I am a former Upward 
Bound Special Services director.
    Mr. Nixon. Good for you.
    Chairwoman Foxx. So I am very familiar with the program.
    I recognize now Ms. Cheri Betz for 5 minutes.

 STATEMENT OF CHERI BETZ, SOUTHEAST REGIONAL DIRECTOR, COLLEGE 
       FOR PROFESSIONAL STUDIES, SIENA HEIGHTS UNIVERSITY

    Ms. Betz. Good morning and greetings to Chairwoman Foxx and 
Congressman Walberg, fellow panelists and distinguished guests. 
Thank you. My name is Cheri Betz, and I am the Southeast 
Regional Director for Siena Heights University's College for 
Professional Studies, with managing responsibilities for the 
Monroe and Southfield campuses.
    Our President, Sister Peg Albert, sends her greetings and 
extends her apologies for not being able to join us today. She 
did have plans to be here to discuss this important topic, but 
because of an urgent matter she was unable to do so.
    First, I would like to provide a brief background on Siena 
Heights University. We are a Catholic, liberal arts university 
offering associate's, bachelor's, master's and specialist's 
degrees. Founded in 1919 by the Adrian Dominican Sisters 
congregation, our main campus is located in Adrian, Michigan, 
with degree completion programs in Battle Creek, Benton Harbor, 
Jackson, Lansing, Monroe, and Southfield, as well as totally 
online. Siena Heights enrolls approximately 2,400 undergraduate 
students and 350 graduate students across all campuses.
    Siena has long had a strong relationship with both 
employers and educational partners. In fact, Siena took a 
pioneering role in providing opportunities for adult working 
students by offering evening and weekend classes by opening 
degree completion centers throughout Michigan beginning in 
1975. One of these sites is located at Monroe County Community 
College, where we have had a presence since 1990. We continue 
to enjoy a productive and effective partnership with President 
Nixon and his team.
    One of our institutional goals is to identify the personnel 
needs of local and regional communities and prepare the 
professionals needed in these areas. However, the key is not 
only identifying these needs but responding to those needs as 
well. In the Monroe community, a recent example of this 
includes an RN to BSN degree completion program we implemented 
at Mercy Memorial Hospital. The cohort was offered through 
Mercy Memorial after Sienna was approached by hospital 
administration regarding an onsite degree completion option for 
their employees.
    This is the kind of collaborative approach that Siena takes 
as much as possible. In fact, we consider ourselves to be an 
enabling institution that seeks to develop cooperative 
arrangements with a wide variety of individuals and 
institutions in the interest of creating effective learning 
outcomes and environments.
    Siena also regularly updates articulation agreements with 
area community colleges and proprietary trade schools. These 
agreements provide students with an understanding that their 
earned degree or college credit will be accepted by Siena if 
they meet the standards outlined in the formal document. Siena 
takes it a step further and we have created user-friendly 
transfer guides that are based off of these formal articulation 
agreements that students can refer to when selecting courses to 
take at the community college to transfer into Siena. Examples 
of these transfer guides are included in the formal testimony.
    Many of our students transfer in up to three years of 
college credit from the community college, allowing them to 
complete their bachelor's degree with one additional year of 
college course work at Siena. By accepting such a high number 
of credits, Siena is saving students thousands of dollars and 
increasing the number of courses students can take right there 
at the community college.
    Siena's unique Bachelor of Applied Science degree allows 
students without traditional transfer options for degree 
completion an opportunity to earn a bachelor's degree without 
repeating course work within their major. The Bachelor of 
Applied Science degree works on the inverted major concept, 
acknowledging the work the student has completed within their 
Associate of Applied Science degree. Community colleges are the 
leaders in offering AAS degrees in technical and occupational 
areas. Siena has helped students in these degree fields obtain 
a relevant degree that will help them advance in their chosen 
careers. In fact, we have a number of student testimonials that 
are also included in the testimony.
    Siena is also actively engaged in developing relationships 
with employers and key constituent groups on our Adrian campus. 
Our Career Services Office led to the development of Operation 
SERVE, which is a job opportunity fair targeted to help job 
seeking community members, including military veterans. This 
annual one-day fair completed its third year and had more than 
70 employers and service providers attend.
    Working with the local South Central Michigan Works agency, 
there were several community ``boot camps'' leading up to the 
event that addressed everything from how to dress appropriately 
for an interview to resume creation. A similar fair was 
conducted at the Monroe County Community College campus based 
off Siena's concept. Career Services also participates and 
brings our students to job fairs in Livonia, Lansing, and even 
Toledo, Ohio.
    Another example is the development of a services-learning 
philosophy by many of our academic programs. This approach, 
which allows our students to integrate with community 
businesses and organizations, is instrumental to their career 
development. In the area of internships, Siena can claim that 
more than 80 percent of our Adrian campus undergraduate 
students who complete internships end up employed at the place 
where they completed that internship. Because we have federal 
programs such as McNair, Student Support Services and Upward 
Bound on our campus, Siena plays a pivotal role in developing 
first-generation and low-income students for not only the 
workforce but also society at large. In fact, Siena has adopted 
the Soft Skills Initiative the State of Michigan developed 
several years ago after surveying more than 1,500 state 
employers and asking what they were looking for in new hires. 
These soft skills of developing self-managing behaviors align 
exactly with the university's learning objectives.
    Siena also offers federal monies, utilizes federal monies 
from the Workforce Investment Act, as well as On-the-Job 
Training funding from Michigan Works. We also take advantage of 
the Work Opportunity Tax Credit.
    Finally, Siena is actively involved in addressing the needs 
of students with disabilities by making direct referrals to the 
State of Michigan's Rehabilitation Services Agency. These 
federal dollars, along with additional federal funding from 
such areas as Pell Grants, the GI Bill and work-study, are 
appreciated and greatly assist us in bringing higher education 
to underserved student populations. An important fact to note 
is that in the fall 2011 semester, 43 percent of our enrolled 
students received Pell Grant assistance.
    Siena's mission is to assist people to become more 
competent, purposeful, and ethical through a teaching and 
learning environment which respects the dignity of all, and 
that is really what drives us as an institution, and we believe 
in being true to that mission. We best prepare our students to 
become successful not only in their careers but as productive 
society members.
    Again, thank you for the honor of testifying before you 
today.
    [The statement of Ms. Betz follows:]

   Prepared Statement of Sister Peg Albert, President, Siena Heights 
   University [Presented by Cheri Betz, Southeast Regional Director, 
      College for Professional Studies, Siena Heights University]

    Greetings to Chairwoman Foxx, Congressman Walberg, fellow panelists 
and distinguished guests. First, we would like to thank the organizers 
of this field hearing for the opportunity to participate in this panel 
discussion. We are privileged to have been invited to this hearing and 
share our experiences and testimony with you.
    First, let me provide a brief background of Siena Heights 
University. We are a Catholic, liberal arts university offering 
associate's, bachelor's, master's and specialist's degrees. Founded in 
1919 by the Adrian Dominican Sisters congregation, our main campus is 
located in Adrian, Michigan, with degree completion programs in Battle 
Creek, Benton Harbor, Jackson, Lansing, Monroe, and Southfield as well 
as Totally Online. Siena Heights enrolls approximately 2,400 
undergraduate students and 350 graduate students across all campuses.
    Siena Heights has long had a strong relationship with both 
employers and educational partners. In fact, Siena Heights took a 
pioneering role in providing opportunities for adult, working students 
by offering evening and weekend classes and opening degree completion 
centers throughout Michigan beginning in 1975. One of these sites is 
located at Monroe County Community College, where we have had a 
presence since 1990. We continue to enjoy a productive and effective 
partnership with President Nixon and his team at MCCC.
    One of our institutional goals is to identify the personnel needs 
of local and regional communities and prepare the professionals and 
paraprofessionals needed in these areas. However, the key is not only 
identifying needs, but responding to those needs as well. In the Monroe 
community, a recent example of this includes a RN to BSN degree 
completion program we implemented at Mercy Memorial Hospital. The 
cohort was offered through Mercy Memorial after SHU was approached by 
hospital administration regarding an on-site degree completion option 
for their employees. This is the kind of collaborative approach that 
Siena Heights takes as much as possible. In fact, we consider ourselves 
an ``enabling'' institution that seeks to develop cooperative 
arrangements with a wide variety of individuals and institutions in the 
interest of creating effective learning outcomes and environments.
    Siena Heights also has regularly updated Articulation Agreements 
with area community colleges and trade schools. These agreements 
provide students with an understanding that their earned degree/credit 
will be accepted by SHU if they meet the standards outlined in the 
formal document. Siena has created user-friendly transfer guides based 
off these articulation agreements that students can refer to when 
selecting courses to take at the community college and transfer to 
Siena. Examples of these transfer guides are included in the written 
portion of this testimony. Many of our transfer students are able to 
transfer in three years of college credit from the community college 
allowing them to complete their bachelor's degree with one additional 
year of college course work at Siena. By accepting such a high number 
of transfer credits Siena is saving students thousands of dollars and 
increasing the number of courses students take at the community college 
by encouraging the student to return to the community college to 
complete more course work. SHU's unique Bachelor of Applied Science 
(BAS) degree allows students without traditional transfer options for 
degree completion an opportunity to earn a bachelor's degree without 
repeating courses within their major. The BAS degree works on the 
inverted major concept, acknowledging the work the student has already 
completed within their Associate of Applied Science (AAS) degree. 
Community colleges are the leaders in offering AAS degrees in technical 
and occupational areas. SHU has helped students in these degree fields 
obtain a relevant degree that will help them advance in their chosen 
careers. In fact, we have a number of video student testimonials that 
attest to that fact. Links to their video testimony can be found in the 
written evidence we provided to the hearing committee.
    Siena Heights is also active and engaged in developing 
relationships with employers and key constituent groups on our Adrian 
campus. Our Career Services office led to the development of Operation: 
SERVE, a job opportunity fair targeted to help job-seeking community 
members, including military veterans. This annual one-day fair 
completed its third year and had more than 70 employers and service 
providers attend. Working with the local South Central Michigan WORKS 
agency, there were several community ``boot camps'' leading up to the 
event that addressed everything from how to dress appropriately for an 
interview to resume creation. A similar fair was created at the Monroe 
County Community College campus based on SHU's successful concept. 
Career Services also participates and brings our students to job fairs 
in Livonia and Lansing in Michigan, and Toledo, Ohio.
    Another example we would like to cite is the development of a 
service-learning philosophy by many of our academic programs. This 
approach, which allows our students to integrate with community 
businesses and organizations, is instrumental to their career 
development. In the area of internships, Siena Heights can claim that 
more than 80 percent of our Adrian campus undergraduate students who 
complete internships end up employed by the place where they had their 
internship.
    Because we have federal programs such as McNair, Student Support 
Services and Upward Bound on our campus, Siena Heights plays a pivotal 
role in developing first-generation and low-income students for not 
only the workforce, but also for society at-large. In fact, Siena 
Heights has adopted the ``Soft Skills'' initiative the state of 
Michigan developed several years ago after surveying more than 1,500 
state employers what they were looking for in new hires. These ``Soft 
Skills'' of developing self-managing behaviors align exactly with the 
University's learning objectives. Siena Heights also utilizes federal 
monies from the Workforce Investment Act as well as On-the-Job Training 
funding from Michigan Works! We also take advantage of the Work 
Opportunity Tax Credit. Finally, Siena Heights is actively involved in 
addressing the needs of students with disabilities by making direct 
referrals to the state of Michigan's Rehabilitation Services Agency. 
These federal dollars, along with additional federal funding from such 
areas as Pell Grants, the GI Bill and work-study are appreciated and 
greatly assist us in bringing higher education to underserved student 
populations. An important fact to note is that in the fall 2011 
semester, 43 percent of our enrolled students received Pell Grant 
assistance.
    Siena Heights' mission to assist people to become more competent, 
purposeful, and ethical through a teaching and learning environment 
which respects the dignity of all is what drives us as an institution. 
We believe in being true to our mission. We best prepare our students 
to become successful not only in their careers, but also as productive 
members of society.
    Again, thank you for the honor of testifying before you today.
Additional SHU Points of Pride
    <bullet> Transfer Friendly--students can transfer in up to 90 
semester hours of credit towards the 120 hours needed for the 
bachelor's degree. This saves the student money by allowing them to 
transfer in more credit than many other colleges and universities would 
allow. Our academic advisors regularly advise students to return to the 
community college to obtain additional credits at a lower cost before 
transferring to SHU.
    <bullet> Regularly updated Articulation Agreements with area 
community colleges and trade schools provide students with an 
understanding that their degree/credit will be accepted by Siena if 
they meet the standards outlined in the agreement.
    <bullet> Siena has a long history of serving employers directly at 
their locations. Besides the Mercy Memorial Hospital example, SHU has 
had a similar cohort program at the Cook Energy Center in Bridgman, 
Mich., and a number of cohorts who have completed their master's degree 
in Health Care Leadership onsite at the St. John Hospital System in 
several locations in southeastern Michigan.
    <bullet> Our College for Professional Studies academic advisors are 
regularly invited to actively participate in a number of community 
college advisory committees. Some regional examples include: Monroe 
County Community College Business Management Advisory Board, Monroe 
County Community College Criminal Justice Advisory Committee, Henry 
Ford Community College Culinary Arts Advisory Committee and the Henry 
Ford Community College Energy Technology Advisory Committee. Siena's 
participation in these advisory committee meetings benefits both 
institutions by increasing awareness of each other's programs and 
increasing communication about issues students may face within these 
industries so that appropriate changes can be made to the various 
programs.
    <bullet> Siena Heights is one of 14 institutions that will 
participate in a conference June 30, 2013, hosted by the Michigan 
Colleges Foundation that will discuss the role of higher education in 
workforce development.
    <bullet> SHU regularly performs program reviews, watches for 
industry trends, and listens to the community to ensure the majors 
offered are relevant to the workforce needs. Some examples of our 
response to these trends include:
    - SHU's Community Services program is a primary example of 
responding to industry trends with the addition of the Family Systems 
concentration that addresses the need of our Community Services 
graduates qualifying for certain positions within the State of 
Michigan.
    - SHU's Graduate College will offer a Master of Arts degree in 
Clinical Mental Health Counseling, responding to the industry's 
expected need/standards in this important field. The decision to change 
the program from a 48-hour Community Counseling degree to a 60-hour 
Clinical Mental Health Counseling degree was a result of an immersed 
education review of the CACREP standards (both 2009 and proposed 2016), 
licensure laws in contiguous states (increasing portability of the 
degree to other states), the overall status of licensure across the 
states and in discussion with policy makers in Lansing.
    - In response to the declining demand for school counselors within 
the state of Michigan, the Graduate College placed a moratorium on its 
MA in School Counseling degree in 2012. This decision was made because 
Siena is committed to offering programs with a positive career outlook.
    - The Homeland Security and Emergency Management Advisory Committee 
has had an impact on the curriculum of that master's degree program. 
The Homeland Security and Emergency Management program was developed 
through a collaboration with the Center for Homeland Defense and 
Security and the Naval Postgraduate School.
    - SHU's Biology program currently has a 90 percent acceptance rate 
to medical schools. Also, the University recently signed an early 
acceptance agreement with the Lake Erie College of Osteopathic Medicine 
for medical, dental and pharmacy.
    - SHU recently completed a Healthcare Feasibility Study and 
discussed what programs/majors are being considered to help address 
some of the growing needs within that industry.
    <bullet> In 2004 Siena began offering a totally online bachelor 
degree program. Since its inception the Distance Learning Program has 
served students in 34 states. Currently, we offer online courses to 
students residing in 30 states. Although we are in compliance in these 
states, additional federal regulations do/might put a restraint on a 
small institution like Siena Heights in its ability to provide quality 
educational programming. For instance, online enrollment growth at 
Siena has steadily increased with a retention rate of approximately 94 
percent.
    <bullet> SHU's Graduate College now offers a totally online Master 
of Arts degree in Leadership, increasing opportunities for advanced 
degrees for those unable to attend campus courses.
    <bullet> Approximately 75-80 percent of all students enrolled at a 
College for Professional Studies degree completion center and just over 
90 percent of all students enrolled in the Distance Learning Programs 
complete their program and graduate.
    <bullet> In a 2009 Eduventures(c) study, 95 percent of all Bachelor 
of Applied Science graduates were satisfied with their degree 
completion program, with many citing career advancement opportunities.
    <bullet> Operation: SERVE job opportunity fair completed its third 
year with more than 70 employers and service providers attending to 
help community members find jobs.
    <bullet> Siena Heights was named a ``Military Friendly'' 
institution for the fourth consecutive year by GI Jobs Magazine. To 
keep up our good standing in this area, we recently hired a VA 
administrator to assist our registrar with these administrative and 
reporting duties. Our registrar, who previously handled all duties 
related to the VA, said increased regulation and reporting to the VA 
has increased ``four-fold'' in the past two years alone. Her suggestion 
to lighten that burden would be to develop a more consistent and 
uniform system for payment, reporting and communicating the changes/
updates of these multiple veterans programs.
                     siena student success stories
    1. Richard Pazdar:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6338&NewsCategoryI D=3&CampusID=1
    2. Tayleitha Pythowani:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6351&NewsCategoryI D=3&CampusID=1

    3. Leha and Keith Miller:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6344&NewsCategoryI D=3&CampusID=1

    4. Elizabeth McKay:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6352&NewsCategoryI D=3&CampusID=1

    5. Marc Pierce:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6337&NewsCategoryI D=3&CampusID=1

    6. Tanya Chappell:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6341&NewsCategoryI D=3&CampusID=1

    7. Kristi Biundo:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6325&NewsCategoryI D=3&CampusID=1

    8. Alison Myers:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6348&NewsCategoryI D=3&CampusID=1

    9. Mary Stephens:

                      http://www.sienaheights.edu/
 MeetSienaDetails.aspx?NewsArticleID=6331&NewsCategoryI D=3&CampusID=1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    Chairwoman Foxx. Thank you, Ms. Betz.
    Dr. Shields, you are recognized for 5 minutes.

     STATEMENT OF MICHELLE SHIELDS, CAREER COACH/WORKFORCE 
        DEVELOPMENT DIRECTOR, JACKSON COMMUNITY COLLEGE

    Ms. Shields. Thank you. Good morning, Chairman Foxx and 
Congressman Walberg, and other distinguished guests. Thank you 
for the opportunity to speak before this subcommittee. I also 
will be reading my testimony so I do not miss any paramount or 
important aspects of this discussion.
    Jackson Community College each year serves more than 9,000 
students in three counties--Lenawee, Hillsdale and Jackson--as 
well as through online delivery of our courses. Students enroll 
at JCC for a variety of reasons. To better align with students' 
educational and career goals, JCC is adapting existing 
programs.
    Employers from all sectors have identified a variety of 
deficiencies related to the workforce. JCC is working to 
address these issues through curriculum and program reform, 
customized training, and student seminars, including work-based 
learning opportunities such as internships and advisory groups.
    Recently, a number of employers have contracted with 
Jackson Community College through MNJTP, Michigan New Jobs 
Training Program. It is a grant to proactively address training 
needs for workers. Training for employees is more than just an 
on-boarding for technical or hard skills. It includes a host of 
communication skills and behavior awareness initiatives.
    Examples of training requests and objectives we have 
received from local employers include personal coaching and 
mentoring, time management, trust and team building, employee 
engagement, in addition to sensitivity training. Additionally, 
local employers have expressed the need for quality workers in 
the field of manufacturing at all levels of the organization.
    To help meet employer needs, the Associate in Applied 
Science program at JCC is designed to provide hands-on training 
and theoretical knowledge necessary to produce graduates that 
are properly trained and job ready. The various concentrations 
within the sciences are in high-demand technical and 
manufacturing disciplines. JCC is currently adapting existing 
programs and creating new curriculum to meet the newest 
technology and more rigorous technical expertise that employers 
are seeking in their job candidates.
    JCC is in the preliminary stages of creating the framework 
within this system to allow students interested in perhaps only 
a concentration, and then moving toward an immediate goal later 
for an associate degree. So they can add to their academic core 
courses to expand on their concentration to get that Associate 
degree if they so choose.
    This restructured approach will allow for a larger student 
base and assist in getting students aligned with their 
educational and career goals faster. An additional benefit will 
be realized in meeting employer needs through access to 
qualified and competent job candidates.
    Further, employer feedback tells us that many workers do 
not demonstrate proficiency in problem solving and critical 
thinking skills. To address this concern, JCC will be 
integrating basic math skills into the early concentration 
courses. This method should allow students to get the math 
experience they need and require within the courses that are in 
their area of interest through a platform designed to engage 
them while learning.
    In addition to critical thinking and problem solving 
skills, employers report that they are experiencing and 
observing a lack of communication skills, specifically soft 
skills such as diversity appreciation, appropriate messaging 
and trust. As JCC continues to demonstrate flexibility and 
reform curriculum to address employer needs, the First Year 
Seminar or FYS course for new students is also being modified.
    This is a life/work skills course that is designed to set 
the student on a pathway of success from a 360-degree 
perspective with both technical and soft skills embedded into 
the coursework. To do this, the message of creating a culture 
of achievement is woven throughout the course and maintains 
center focus. This is the framework needed to support the 
stronger work ethic of a future workforce. Changes to this 
class are ongoing and key stakeholder voices are heard to 
ensure that outcomes align with student success.
    With course outcomes such as time management, critical 
thinking and teamwork, students taking this course will be 
entering the workforce as change agents, giving employers the 
quality and caliber of employees they need.
    JCC employer partnerships are beneficial to students. As 
the Career Coach, I see this firsthand through contributions 
students make in the workplace through internships and other 
learning assignments.
    Ensuring that employers are finding quality in their 
workers is a priority for JCC, and we will continue to 
participate in valuable discussions regarding expectations, 
implementation of best practices, and researching market trends 
to demonstrate our support.
    In summary, JCC is actively responding to our local 
employers by providing quality, work-ready graduates through 
reformed curriculum and programs designed with their input.
    Thank you for allowing me to speak with you today.
    [The statement of Ms. Shields follows:]

        Prepared Statement of Michelle M. Shields, Career Coach,
                       Jackson Community College

Executive Summary

                          STATE OF THE COLLEGE

    <bullet> Each year JCC serves more than 9,000 students in three 
counties and through on-line delivery of courses.
    <bullet> Students enroll at JCC for a variety of reasons. To better 
align with the educational and career goals of our students JCC is 
adapting existing programs.

          PARTNERSHIPS BETWEEN HIGHER EDUCATION AND EMPLOYERS

    <bullet> In December 2012, JCC received notification by the 
Michigan Community College Association (MCCA) of available Michigan New 
Jobs Training Program (MNJTP) funds. Employers in essence receive free 
training dollars for individuals, by adding new jobs to their payroll.
    <bullet> In early February, MNJTP contracts were sent to the 
Michigan Treasury totaling $499,500.00 earmarked for training, through 
diversions of state withholding from new employees/positions
    <bullet> Employers have identified both soft and technical skill 
deficiencies in workers, and therefore connected with JCC to create 
customized training to remedy these issues.
    <bullet> An on-line job board was created for employers to utilize 
for their hiring needs. Qualified job candidates are referred to 
employers by JCC Faculty and the Career Coach in response to job 
vacancies.

               MATCHING EMPLOYER NEEDS THROUGH CURRICULUM

    <bullet> Technical expertise is integrated into curriculum to meet 
employer expectations, demonstrated through work based learning 
opportunities and job offers.
    <bullet> The curriculum of the work/life skills class (FYS) will 
incorporate the importance of soft skills, critical thinking and 
problem solving as these are fundamental characteristics found in 
successful employees.
Field Hearing
    Good morning. Congresswoman/Chairwoman, Foxx, Congressman Walberg 
and other distinguished guests.
    Thank you for the opportunity to speak before the Subcommittee on 
Higher Education and Workforce Training at this hearing entitled 
``Reviving our Economy: The Role of Higher Education in Job Growth and 
Development on behalf of Jackson Community College''.
    Employers from all sectors have identified a variety of 
deficiencies relating to the workforce. JCC is working to address these 
issues through curriculum and program reform, customized training, 
student seminars; work based learning opportunities and advisory 
groups.
    Recently a number of employers have contracted with JCC through the 
MNJTP grant to proactively address training of workers. Training for 
employees is more than just on-boarding for technical or hard skills; 
it includes a host of communication, soft skills and behavior awareness 
initiatives.
    Examples of training requests and objectives we have received from 
local employers include personal coaching and mentoring, time 
management, trust and team building, employee engagement and 
sensitivity training. Additionally, local employers have expressed the 
need for quality workers in the field of manufacturing, and at all 
levels of the organization.
    To help meet employer needs, the Associate in Applied Science 
program at JCC is designed to provide the hands-on and theoretical 
knowledge necessary to produce graduates that are properly trained, and 
job ready. The various concentrations within the Associate in Applied 
Science are high demand technical manufacturing disciplines. JCC is 
currently adapting existing programs and creating new curriculum to 
meet the newest technology and the more rigorous technical expertise 
that employers are seeking in candidates.
    JCC is in the preliminary stages of creating the framework within 
this system to allow students interested only in a concentration to 
achieve that immediate goal and then later, as they progress in their 
careers, they can add the other academic core courses to expand their 
concentration to earn the Associate degree if they so choose.
    This restructured approach will allow for a larger student base, 
and assist in getting students aligned with their educational and 
career goals faster. An additional benefit will be realized in meeting 
employer needs through access to qualified and competent job 
candidates.
    Further, employer feedback tells us that many workers do not 
demonstrate proficiency in problem solving and critical thinking 
skills. To address this concern, JCC will be integrating basic math 
skills into the early concentration courses. This method should allow 
students to get the math experience they require within course(s) that 
are in their area of interest and through a platform designed to engage 
them while learning.
    In addition to critical thinking and problem solving skills, 
employers report that they are experiencing and observing a lack of 
communication skills. Specifically, soft skills such as diversity 
appreciation, appropriate messaging and trust. As JCC continues to 
demonstrate flexibility and reform curriculum to address employer 
needs, the First Year Seminar (FYS) course for new students is also 
being modified.
    This life/work skills course is designed to set the student on the 
pathway for success from a 360 degree perspective with both technical 
and soft skills imbedded into the coursework. To do this, the message 
of ``creating a culture of achievement'' is woven throughout the course 
and maintains center focus. This is the framework needed to support a 
stronger work ethic of the future workforce. Changes to this class are 
on-going and key stakeholder voices are heard to ensure that outcomes 
align student success. With course outcomes such as time management, 
critical thinking and teamwork, students taking this course will be 
workforce change agents, giving employers the quality and caliber of 
employees they need.
    JCC's employer partnerships are beneficial to our students. As the 
Career Coach, I see first-hand, the contributions students make in the 
workplace through internships and other learning assignments. Students 
share positive feelings about their experiences in addition to a sense 
of pride and achievement which serves as validation for their 
sacrifices and hard work.
    Ensuring that employers are finding quality workers is a priority 
for JCC and we will continue to participate in valuable discussions 
regarding expectations, implement best practices and research market 
trends to demonstrate our support. For the convenience of employers 
seeking to fill positions, the Jobs for Jets section on JCC's main web 
page was created. This venue affords employers the opportunity to 
quickly post jobs vacancies which are accessible to JCC students and 
alum. Later this month we are hosting a job fair to help local 
employers find the talent they seek for their organizations.
    In summary, JCC is actively responding to our local employers by 
providing quality, work-ready graduates through reformed curriculum and 
programs designed with their input.
    Thank you for allowing me to speak with you today.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    Mr. Levy?

STATEMENT OF DOUGLAS A. LEVY, DIRECTOR OF FINANCIAL AID, MACOMB 
                       COMMUNITY COLLEGE

    Mr. Levy. On behalf of Macomb Community College and our 
President, Dr. James Jacobs, I wish to thank Chairwoman Foxx, 
Representative Walberg, Ranking Member Hinojosa and the rest of 
the committee for the opportunity to testify before you today. 
Dr. Jacobs has already submitted a written testimony which 
highlights some of the great work that Macomb is doing in the 
area of workforce development. To complement this, my comments 
will focus on the critical importance of federal student aid 
for students, the workforce, and America's economy in general.
    To frame the discussion, I will start by offering a few 
relevant statistics that highlight the importance of federal 
student aid for students pursuing higher education at Macomb. 
This past fall, 24,160 students enrolled in credit classes at 
Macomb, which represents a 15 percent increase since the fall 
of 2004. During that same eight-year period, the number of 
students receiving some form of federal student aid increased 
by 327 percent, and Pell Grant recipients increased by 231 
percent.
    Stated slightly differently, more than half of all 
currently enrolled students depend on some form of federal 
student aid, and a full one-third of all currently enrolled 
students receive a Pell Grant. Each of those numbers was less 
than one-tenth of all students eight years ago.
    When put into the further context of the many job-skill-
based certificate programs and employment-driven associate 
degrees that Macomb Community College offers, the significant 
impact that federal student aid has on the economy in general 
is also exemplified. Related, more than half of the current aid 
recipients at Macomb are classified as non-traditional, with an 
average age of 34 years old. While the reasons for this 
particular population attending Macomb are obviously diverse, 
it is well-documented that the single biggest factor is 
directly related in one way or another to improving their 
employment situation, including having lost a job and having to 
learn a new employable skill. Without the assistance of the 
Pell Grant, many of these students would not be able to afford 
to attend college and thus would face greatly diminished 
employment prospects.
    For the many students currently receiving federal student 
aid at Macomb who, rather than entering the workforce upon 
graduation, continue to pursue a bachelor's degree at a four-
year institution, the importance of financial aid is also very 
evident. With low tuition and fees, many Pell Grant recipients 
at Macomb achieve their associate's degree with little or no 
loan burden, which ultimately translates into significantly 
less debt upon completion of a four-year degree. Clearly, there 
are many benefits, both to the student and for our economy in 
general, when graduating students enter the workforce with less 
loan burden.
    The next topic I wish to mention is the need for change in 
the way that financial aid is administered. There is little 
debate that many aspects of financial aid are far too complex, 
from a regulatory standpoint, how institutions are required to 
administer aid, and how students interact with it.
    One specific area in need of change that directly impacts 
the ability of community colleges to more fully leverage 
federal aid is what I refer to as the fallacy of a one-size-
fits-all approach to financial aid administration. The current 
approach is analogous to having the same set of manufacturing, 
safety and consumer regulations for bicycles, cars and yachts, 
since they are all considered forms of transportation. For 
example, having the same loan limits for community colleges as 
for a four-year private institutions is problematic for 
community colleges for a variety of reasons, including the 
potential for excessive and abusive borrowing, default rates 
that continue to rise, and escalating levels of non-collectible 
bad debt.
    Financial aid policy and regulations need to recognize and 
account for these differences. By doing so, it will make the 
process more efficient, thereby reducing the overall cost of 
aid administration, and resulting in federal student financial 
aid being significantly more responsive to all those it is 
intended to serve.
    Before closing, I would like to briefly comment on the 
general topic of student aid as it relates to the federal 
budget. First and foremost, I sincerely appreciate the 
bipartisan support that federal aid in general, and the Pell 
Grant program in particular, has received over the past several 
years. Pell is a universally important program, and as a member 
of the higher education community, I am very thankful for your 
support.
    Secondly, I recognize the threat of record levels of 
federal debt but urge you to continue to invest in students by 
fully funding student aid programs to ensure that these 
programs remain predictable, reliable, and sustainable. 
Attempting to balance the budget through reduced funding in 
federal aid diminishes our odds of future success.
    In conclusion, I leave you with the following observation. 
As demonstrated by the information provided in my testimony 
today, federal student aid continues to play an increasingly 
critical role in the lives of so many people in building a 
well-trained, expanding workforce and in maintaining a thriving 
economy. The evidence is clear and indisputable: a strong 
commitment to federal student aid is, above all else, a solid 
investment in America's future.
    Thank you for your time.
    [The statement of Mr. Levy follows:]

   Prepared Statement of Douglas A. Levy, Director of Financial Aid,
                  Macomb Community College, Warren, MI

    On behalf of Macomb Community College and our President, Dr. Jim 
Jacobs, I wish to thank Chairwoman Foxx, Representative Walberg, 
Ranking Member Hinojosa and the rest of the Committee for the 
opportunity to testify before you today. With prior approval from the 
Committee, Dr. Jacobs has submitted a written testimony which 
highlights some of the great work that Macomb continues to do in many 
areas of workforce development and advanced in-demand training. To 
compliment this, my comments will focus on the critical importance of 
federal student aid for students, the workforce, and America's economy 
in general.
    To frame the discussion, I would like to start by offering a few 
relevant statistics that highlight the importance of federal student 
aid for students pursuing higher education at Macomb. This past Fall, 
24,160 students enrolled in credit classes at Macomb, which represents 
a 15% increase since the Fall of 2004. During that same eight-year 
period, the number of students receiving some form of federal student 
aid increased by 327%, and Pell Grant recipients increased by 231%. 
Stated slightly differently, more than half of all currently enrolled 
students depend on some form of federal student aid and a full one-
third of all currently enrolled students receive a Pell Grant. Each of 
those numbers was less than 10% eight years ago.
    When put into the further context of the many job-skill-based 
certificate programs and employment-driven associate degrees that 
Macomb Community College offers, the significant impact that federal 
student aid has on the economy in general is also exemplified. Related, 
more than half of the current aid recipients at Macomb are classified 
as non-traditional, with an average age of 34 years old. While the 
reasons for this particular population attending Macomb are obviously 
diverse, it is well-documented that the single biggest factor is 
directly related in one way or another to improving their employment 
situation, including having lost a job and having to learn a new 
employable skill. Without the assistance of the Pell Grant, many of 
these students would not be able to afford to attend college and thus 
would face greatly diminished employment prospects.
    For the many students currently receiving federal student aid at 
Macomb who, rather than immediately entering the workforce upon 
graduation, continue to pursue a bachelor's degree at a 4-year 
institution, the importance of financial aid is also very evident. With 
low tuition and fees, many Pell Grant recipients at Macomb achieve 
their Associate's Degree with little or no loan burden, which 
ultimately translates into significantly less debt upon completion of a 
4-year degree. Clearly, there are many benefits, both to the student 
and for our economy in general, when graduating students enter the 
workforce with less loan burden.
    The next topic I wish to mention is the need for change in the way 
that financial aid is administered. There is little debate that many, 
if not most, aspects of financial aid are far too complex, from a 
regulatory standpoint, from how institutions are required to administer 
it, and from how students interact with it. One specific area in need 
of change that directly impacts the ability of community colleges to 
leverage federal student aid to the maximum benefit of students and 
ultimately for the greater good of the economy, is what I refer to as 
the fallacy of a one-size-fits-all approach to financial aid 
administration. The current approach is analogous to having one set of 
manufacturing, safety and consumer regulations for bicycles, cars and 
yachts, since they are all considered forms of transportation. For 
example, having the same loan limits for community colleges as for 4-
year private institutions is problematic for a variety of reasons, 
including the potential for fraud and abuse of loan borrowing at 
community colleges. Financial aid policy and regulations need to 
recognize and account for these differences. By doing so, it will make 
the process more efficient for each type of institution, reduce the 
costs of administration, and result in student financial aid being 
significantly more aligned with and responsive to all those it is 
intended to serve.
    Before closing, I would like to briefly comment on the general 
topic of student aid as it relates to the federal budget. First and 
foremost, I sincerely appreciate the bipartisan support that federal 
student aid in general, and the Pell Grant program in particular, has 
received over the past several years. Pell is a universally important 
program and as a member of the higher education community, I am very 
thankful for your support. Secondly, I recognize the threat of record 
levels of federal debt, but urge you to continue to invest in students 
by fully funding student aid programs to ensure that these programs 
remain predicable, reliable, and sustainable. Attempting to balance the 
budget through reduced funding in education diminishes our odds for 
future success.
    In conclusion, I leave you with the following observation. As 
demonstrated by the information provided in my testimony today 
regarding Macomb Community College's experiences, federal student aid 
continues to play an increasingly critical role in the lives of so many 
people, in building a well-trained, expanding workforce and in 
maintaining a thriving economy. The evidence is clear and indisputable: 
a strong commitment to federal student aid is, above all else, a solid 
investment in America's future.
    I thank you for your time.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    I would like to start questions with an issue that Ms. Betz 
brought up. I am fascinated, and all of us on the committee are 
fascinated with the different ways to bring down the cost of a 
college education, and you have raised the issue here that I 
think is very important about the program that you have, the 
three years on campus here, and the one year at Siena. Tell me 
how you got the accreditors to approve that.
    Ms. Betz. Well, I think it goes back to our mission, and 
that is to be confident, purposeful, and ethical. If we were 
able to assist students to manage what their debt was going to 
be when they elect school, I think that spoke highly of what we 
were trying to do with our community partners.
    The program is really remarkable in that it is accepting 
such a high credit amount of transfer work. Typically, schools 
do not transfer in up to 90 semester hours of credit, or if 
they do, students find out once they are in the program that 
they have to repeat many of the courses within their major. Our 
students are bringing us their transcripts, and they have an 
answer with what is going to be transferred in before they 
begin the program. I think that speaks to the high ethical 
standard that we hold ourselves to, and that was another factor 
that was a benefit.
    Chairwoman Foxx. Well, again, I worked at a university 
before I went to a community college, and I worked out 
articulation agreements with community colleges to do exactly 
what you are talking about, to make sure that students knew 
when they took the classes at the community college, or even at 
another four-year school, what they could transfer in, but I 
have not seen a program that does three years on the community 
college campus, and then one year at the four-year school. So 
it is another arrow in the quiver, as far as I am concerned, 
for how we can talk about reducing the cost of going to 
college.
    I would like to follow up with you a little bit on talking 
a little bit about what you are doing in distance education and 
how is that fitting into your overall program. Are the students 
that you are serving through distance education very different 
from the students you are currently serving or have been 
serving?
    Ms. Betz. That is a great question. We started our distance 
learning program in 2004. Currently, we have 351 students 
enrolled in that specific program in 30 states. So our students 
differ in that the program, in order to be enrolled and 
admitted into that program, the admission standard is slightly 
higher, and you will see that our retention rate is slightly 
higher as well in that area compared to our other College for 
Professional Studies programs. Both are very respectable, but I 
think that makes a difference and an impact.
    We do offer a number of tutoring options as well for our 
distance programs, as well as online library resources. So we 
are not just saying, okay, here is the course, and it is just a 
silo within that course. There are other resources that 
students can reach out to to ensure that they are successful.
    We also boast a very highly personalized advising mantra, 
so to speak, so that students aren't a number. They are a 
person to us, and we take them in as part of our Siena family. 
So I think that speaks highly of how we have been able to 
maintain such good retention rates within the College for 
Professional Studies.
    Chairwoman Foxx. And according to your comments, you have 
been doing off-campus programs since 1975.
    Ms. Betz. That is correct.
    Chairwoman Foxx. You were ahead of the curve of many, many 
schools in terms of offering these kinds of programs.
    Ms. Betz. Yes.
    Chairwoman Foxx. And here at Monroe since 1990. Is that 
correct?
    Ms. Betz. That is correct.
    Chairwoman Foxx. Great.
    My time is almost up, so I am going to yield to Mr. 
Walberg, and then I will come back with some other questions 
for other members of the panel.
    Mr. Walberg. Thank you. And if I could, a point of personal 
privilege. Madam Chairwoman, you know that we, as brothers and 
sisters in the battle of public policy, experience a life that 
is different than the rest of the world. Maybe that is our 
problem. But I have a former colleague of mine in the room from 
the state legislature, former State Representative Greg 
Pitoniak, who is involved heavily in workforce issues in the 
region. I just wanted to thank you, Greg, for joining us today. 
Even though we didn't let you speak because politicians 
generally speak too long anyway, it is good to have you here.
    Dr. Nixon, again, I appreciate you allowing us to be here 
today for this hearing. The subcommittee is always concerned 
with waste, fraud and abuse, and each of you have mentioned the 
area of financial aid. So I guess I would like to ask each of 
you to respond to this question, but Dr. Nixon first.
    Often, community colleges are at risk because of their low 
tuitions, at least at risk of the perception of fraud and abuse 
of federal aid to students. Can you describe how MCCC deals 
with this and prevents that from happening?
    Mr. Nixon. I appreciate that question because it is a 
concern. Our goal, obviously, is to give students the 
opportunity of reaching their career goals through higher 
education.
    By the way, just to expand on the Chairwoman's questions 
for Ms. Betz, another bonus, if you will, is that both Monroe 
County Community College and Siena Heights are accredited by 
the Higher Learning Commission, so it is easier to work with 
them.
    But in response to your question, yes, there is an 
opportunity for fraud and abuse. We cherish the Pell Grant 
opportunity for our students. You have heard how many of our 
students require some type of tuition assistance. The problem 
is that for a student who comes in here and is maxed with a 
$5,500 Pell Grant, you have a lot left over after tuition. They 
are allowed with that extra money, which is a couple of 
thousand dollars, to purchase computers or to help out with 
their transportation.
    So the challenge for us is to track those students in those 
classes to make sure we know if they have left the campus, and 
that is the greatest challenge for us, because we have had 
students that do that. Just recently in Detroit, publicly 
stated, publicly reported, there were two rings of individuals 
who had figured out the Pell Grant system, and they were going 
around to the community colleges and enrolling in each one.
    Fortunately, our financial aid and enrollment management 
people have figured out a system to start on the front end to 
measure where those students are, or to determine whether and 
if they have gone to another college, or if they have not told 
the truth on their registration packet, which is one way of 
putting up a stop sign and saying, oops, you have not told the 
truth in your registration forms, we are not going to allow you 
into the program.
    Now, there are not many of them, but as you see, even with 
a 2 percent default rate, that is $250,000 we have to turn back 
to the federal government. So I think there are some ways, 
according to our financial aid experts here on the campus--they 
have done a tremendous job working with these students. They 
need more opportunities to intervene, because they cannot tell 
a student--if, based on their professional judgment, a student 
shouldn't be loading on some additional loans in addition to 
the Pell Grant, they are not able to do that. So I think that 
would benefit at least our financial aid folks to take better 
control of that.
    Mr. Walberg. To have that ability.
    Mr. Nixon. Yes.
    Mr. Walberg. Ms. Betz?
    Ms. Betz. Our regular practice is to monitor attendance, 
both on the ground and in participation in our online courses, 
so that if students are not participating or attending class, 
they are dropped within that first week. Because we are on an 
eight-week term, we have two eight-week accelerated programs 
through the College for Professional Studies, we are able to 
help catch some of that. Maybe they were enrolled in the class 
but they never had intentions of taking the course and 
participating for a grade, so that we can be corrective in 
getting them out of the class before aid has been distributed 
if they are receiving that type of aid.
    Another thing that I think is important for us to remember 
is, yes, we do have approximately 43 percent of our students 
receiving the Pell Grant this past year, but just to be 
cognizant of any additional regulations. In speaking with our 
financial aid director, she just wanted me to convey that if 
there is anything that can be done for assistance and how those 
monies are reported back, that would be greatly appreciated.
    Mr. Walberg. Let me jump in here. Dr. Shields, so we can 
get some response from Jackson Community College.
    Ms. Shields. Sure, thank you. At JCC, we check transcripts 
of incoming students to see if they have perhaps enjoyed the 
academic career at a former institution, and we check to ensure 
that they are in good standing with academic progress, SAP.
    Additionally at JCC, we have an HQV system, a Help Quit 
Verify system, and it is a three-point system, three checks 
within the semester. If a student needs help, if they are not 
doing well, they may get a call from our Learning Support 
Center. If they have not attended, we also do drop them, of 
course, in that earlier time period. And then, of course, the 
``V'' to verify that they are, in fact, attending class and 
participating. So we have implemented some safeguards to our 
benefit.
    Mr. Walberg. With your indulgence, Madam Chairwoman, may I 
continue on?
    Chairwoman Foxx. Certainly.
    Mr. Walberg. Thank you.
    Chairwoman Foxx. I tell you what, I will yield you my 
question, my round this time, just to keep things straight. How 
is that?
    Mr. Walberg. Thank you.
    Mr. Levy. Thank you. Yes, it is a great question. As I 
mentioned in my testimony, one area specifically as it relates 
to the fact that community colleges are strapped by the same 
loan limits that four-year publics are, and four-year privates. 
So I am obligated to give a student, a first-year student, up 
to $5,500 in loan money even if they have a full Pell Grant, as 
Dr. Nixon said.
    Now, having said that, there are things that we try to do 
to mitigate the risk. One area is that we don't actually 
disperse funds to students until after the three-week census 
date so that we know who is in class and who isn't. At the 
beginning of the term, we are able to provide for their direct 
costs of tuition, obviously, because it is on the student 
account, as well as we have an agreement with our bookstore. So 
students can get their direct costs taken care of without 
having the money in their pocket. So that is a way that we can 
slow down the abuse factor.
    I would also suggest that the federal government is doing 
some things right now with the new regulations for enrollment 
and unusual enrollment history. We are getting flagged now for 
students who are running from one institution to another, and 
we are obligated to look into those students before we give 
them federal aid.
    It is really a matter of, as I said in my testimony, 
looking at the individual types of institutions and providing 
the kinds of regulations so that we can have professional 
judgment, as Dr. Nixon said, that we can look somebody in the 
eye and say we know that you are borrowing $5,000, but it is 
not for educational expenses, and we are not going to provide 
that money to you. Right now we cannot do that unless we are 
absolutely sure that they can look me in the eye and say I am 
not going to pay that back, and that is the only regulatory 
reason I can deny somebody a student loan. So there has to be a 
better capability.
    Mr. Walberg. Those are challenging things, and it is good 
to get information for us to hear as we battle with that whole 
issue of diminishing dollars at this point in time and getting 
a $16 trillion debt and deficit spending under control, and 
dealing with what the real world has to deal with. These are 
challenges, and yet still to get people educated.
    For me to have a young lady come to my office requesting 
help on a foreclosure situation and the purchasing of a 
replacement or paying off so they can keep the house and say, 
within three weeks I will be able to get my Pell Grant money, 
and then I can pay, that wasn't for education. Though I felt 
for that young lady and her desire to keep that home, that 
wasn't the purpose. So those are the challenges we face.
    Let me go on.
    Chairwoman Foxx. Would the gentleman yield?
    Mr. Walberg. Yes, I would.
    Chairwoman Foxx. Okay. I think you are on the right line of 
questioning. So if I could, I would like to ask one quick 
question of Mr. Levy.
    I have not heard anything at all from the financial aid 
administration or the National Association--I have lost track 
of the title of it. But has your association made 
recommendations to members of Congress along these lines? I am 
curious to know if there is a set of legislative 
recommendations.
    Mr. Levy. Yes, absolutely. The National Association of 
Student Financial Aid Administrators is actively pursuing 
recommendations on several fronts, including the areas we are 
discussing today, transparency and award notification, and so 
on and so forth.
    At a more global level, the Melinda and Bill Gates 
Foundation just commissioned grants from over 15 organizations 
to come up with white papers about what they call ``Reimagining 
Aid Design and Delivery.'' There are some people who are a lot 
smarter than I am who will do some very important think pieces 
about accountability of financial aid offices in universities 
and joint partnerships, skin in the game so that completion 
rates are tied to financial aid. There is a lot of activity 
around the area of really redesigning financial aid to both 
address what you are talking about, the escalating costs, as 
well as making it a more efficient operation for everybody 
involved.
    So, absolutely, there is much activity in that regard, very 
good activity in that regard.
    Chairwoman Foxx. It is your turn again. We will set the 
clock again. I yielded to you, then I took back some time. Now 
it is your turn again.
    Mr. Walberg. I like this process. We ought to talk to 
Chairman Kline about continuing this.
    Let me go along the line again asking each of you, and I 
will start with Mr. Levy first, so we will go back in this 
direction.
    It comes up with the idea that I am meeting and going 
manufacturer to manufacturer, business place to business place, 
and I hear so often the frustration that employers are saying, 
you know, not every student should go to college or university. 
There are trade programs. We've been talking about that, and I 
think you are attempting to meet that aggressively, those 
concerns.
    But let me ask you, do you counsel and have in place a 
process of counseling certain students against pursuing 
education for job fields that the jobs aren't there right now? 
Do you have any process in place to do that, Mr. Levy? We will 
start with you.
    Mr. Levy. I believe that Dr. Jacobs would be much better to 
answer that question then I. But when students come into my 
office, and you can tell that they are not academically 
equipped for what we are offering them for a degree program, we 
do send them over to the academic advising and counseling 
office to see what other opportunities there are at the 
community college, non-credit classes, other workforce 
development activities within the college.
    Mr. Walberg. Dr. Shields?
    Ms. Shields. We have in my office, I put students through 
what is called Job Fit. It is an assessment tool to help them 
understand what would be expected of them in their desired 
field when they come to talk about their hopes and dreams, 
because clearly we want to help people succeed in advance.
    Additionally, we have what is called Career Coach. It is a 
program that allows students to type in an occupation, and then 
it more fully discloses to them the level of education they 
will need, the trends, so that they are not getting a degree 
and spending a lot of money for something where they will not 
find successful employment. So we have those tools in place for 
our students and applicants, yes.
    Mr. Walberg. But it is still up to them to make that final 
decision.
    Ms. Shields. They do make that decision.
    Mr. Walberg. Ms. Betz?
    Ms. Betz. We have two things that come to mind that I think 
would be a good example of what Siena does. As I mentioned 
earlier, our personal advising. We meet with the student 
individually with an academic advisor and we listen to what 
they are telling us their goals are, why they want to pursue 
higher education. If we feel that it is not a good fit, we will 
recommend another path for them, whether it is another college 
or another program. It may be a proprietary school may be a 
better fit for their career goals, or it may even be going back 
to a community college to enroll in a separate or different 
path.
    The other thing that we have recently done is we have 
increased some of the standards within our programs for 
admission. A recent example of this that will be happening this 
fall is with our professional communication major where we are 
asking students to have a certain GPA in courses that lead up 
to the higher level, the junior/senior level classes, so that 
they are not getting in just with a 2.0. They are going to have 
to have a 3.0 in order to advance in their major.
    So those are just two examples of what we are trying to do.
    Mr. Walberg. Dr. Nixon?
    Mr. Nixon. Thank you very much. Monroe County Community 
College has a number of strategies in that regard. And, by the 
way, the best assistance we got in that regard was from Global 
Engines five years ago that opened an engine plant here in 
Monroe, and their requirement is an associate degree to work at 
a plant. That spoke volumes to the community and the students 
who are starting to think about these new careers.
    In addition to that, Monroe County Community College is a 
member of the WIN, the Workforce Intelligence Network, that was 
funded by employers and others in Detroit. We are one of eight 
community colleges, including Macomb, and the greatest tool in 
our toolbox is getting all the data now for what is driving 
these jobs, what are the best paying jobs. The latest data that 
I have is in your material in part of my text that I didn't 
read this morning.
    But here is why this is important. Fortunately, we have a 
marketing department that is working closely with the local 
newspaper that is continually informing the students of where 
those high-skilled, high-paying jobs are, so that when they 
come to the campus, they at least have an idea.
    My concern is that there is another population of 
individuals, according to the WIN data, that are 40-years-plus 
whose shelf life on their skills may have expired, just like 
software does. Those are the adults that come back for the 
short-term training programs for some of these high-skilled 
jobs. Our challenge is finding the money for the tuition for 
those programs as we have had in the past.
    But there are a number of strategies in addition to that in 
the high schools, the high school counselors that our 
enrollment management people work with all the time. We also 
have a high school program on campus which with the ISD which 
is geared on all healthcare careers, which takes care of all 
the healthcare careers. They are coming onto the campus as a 
freshman in high school instead of going to their high school, 
and they are here five years, and by the time they finish they 
will have an associate degree and their high school diploma. 
When the new career tech center is open, that is the plan for 
that, to reach down, do the talent searching into the lower 
grades.
    So we don't have this issue of a student coming here and 
saying, ``What should I take?''
    Mr. Walberg. Yes. Well, I appreciate that, and I certainly 
think we ought to be encouraging our young people to be all 
that they can be.
    Mr. Nixon. Right.
    Mr. Walberg. But not necessarily telling them you can be 
anything you want. Even if you could be, you still have to make 
a contribution to society that adds to the tax base and to 
paying your own way, as opposed to the dreams that never come 
true. Ultimately, with the vanishing dollars we have, we can't 
afford that.
    Thank you, Madam Chairwoman.
    Chairwoman Foxx. Thank you.
    Dr. Shields, Dr. Nixon brought up an issue that I had 
wanted to explore a little bit, and that is the issue of dual 
enrollment. Do you do a lot at your college with students who 
are in high school, and does Michigan have an overall program 
to promote students getting college credit while they are still 
enrolled in high school?
    Ms. Shields. Yes, and thank you. JCC in all three counties 
has dual enrollment agreements, and specifically at our Lenawee 
facility, which is JCC at LISD Tech. So clearly, we have those 
relationships wherein students do come to us and they are 
enrolled at their high school and also JCC to get their 
preliminary coursework completed, and it also helps to offset 
the cost of college for so many of those students who may 
otherwise not be able to find the funding to attend.
    Chairwoman Foxx. And I would like to switch gears, then, 
just a little bit. How are you working with the employers that 
you are hoping will employ your graduates? How are you working 
with them to get the feedback that you need to get the skills 
for the students so that when they graduate or when they 
complete a certificate program or in whatever way they decide 
to move on to work, how are you working to get those skills 
imbued in your classes?
    Ms. Shields. Yes, thank you for asking. Well, three 
different ways right now. This is perfect timing. We are 
hosting a job fair next week at JCC, and employers in our 
community are just so excited about that, to be able to come to 
our campus and get a talent match.
    Additionally, we have advisory groups wherein we sit down 
and have those candid discussions, and sometimes they are very 
sensitive, basically helping us understand what they are 
looking for when they hire on our graduates, and then how those 
graduates can be successful long-time employees.
    So, as I stated earlier, our first-year seminar class is 
being redesigned to incorporate the information that I get as a 
career coach and connecting with our employers with regard to 
those soft skills and the 360 approach to the students to help 
them have a greater work ethic and be that workforce, the 
desired workforce that is going to support our community and 
the local employers. So advisor group meetings.
    Additionally, many of our faculty are adjuncts that work as 
professionals or practitioners in their field of expertise, and 
they bring forth some amazing information that helps us as we 
look to curriculum reform and re-delivery.
    Chairwoman Foxx. Thank you very much.
    I wonder, Ms. Betz, if you wanted to mention anything else 
about what Siena Heights is doing to meet the local workforce 
demands. Have you ever been faced with eliminating programs 
that are no longer in demand as regards the workforce?
    Ms. Betz. Sure. We recently put--within our graduate 
college, we have a Master of Arts in Counseling. One of the 
concentrations that students could obtain was called school 
counseling. We were receiving feedback from students, and from 
those on our practicum sites as well, that it was kind of a 
declining market with some difficulties facing that particular 
area. So we decided this past fall to, in fact, put a 
moratorium on that particular concentration, and in doing so we 
took a look at the program as a whole.
    It was 48 semester hours. We recently adopted a 60-
semester-hour program for the counseling degree, and that would 
bring us up to standards for the accreditation, which is the 
Council for Accreditation in Counseling and Related Educational 
Programs, both their 2009 and the expected 2016 recommendations 
for that program. So that is one example.
    In our undergraduate program, our community services major, 
we were hearing feedback from DHS administrators that students, 
in order to get hired into particular jobs within the State of 
Michigan, needed to have specific skill sets that our 
curriculum was not addressing at the time. So we created a 
family systems concentration within that major that students 
could elect to do, and that has been very helpful in helping 
them obtain employment.
    Chairwoman Foxx. Great.
    Mr. Walberg?
    Mr. Walberg. It was mentioned, I believe, Dr. Shields, you 
mentioned earlier about responding to employer concerns on 
employee deficiencies. I think that was the term you used. It 
sounded to me like you were saying there are employers who say, 
``They are trained, but they are not trained to what we really 
need in the field.'' And so I would ask the question, how do 
they report those needs to you?
    Ms. Shields. Thank you. They are very clear and honest 
about when they hire in a new employee and they have 
expectations, and oftentimes it is not a technical expectation 
or a specific hard skill, but it is more a work ethic issue. To 
give you a perfect example, a discussion I had with an 
employer, she simply said if I could just get these people to 
return after payday. So we are looking at some life skills 
training and other types of characteristics found in successful 
employees. So those are the types of problem solving, financial 
literacy, communication, diversity, those types of skill sets 
that seem to not be as proficient in the candidate as an 
employer would hope.
    Mr. Walberg. But what systems do you have in place, what 
mechanisms do you have in place that makes it possible, or 
maybe a better term is easy, for employers to get back to 
training institutions like yours and say, ``Appreciate the 
help, but we are missing something.'' Do you have any concrete 
systems in place that do that?
    Ms. Shields. We have our Corporate and Continuing Ed 
Division that interacts with the workforce of our communities, 
in addition to our advisory group meetings.
    Mr. Walberg. So they are going out to their workplaces 
and----
    Ms. Shields. Yes.
    Mr. Walberg [continuing]. Saying we know that some of our 
graduates, our students who are there with you, our coops, 
whatever, how is it working?
    Ms. Shields. What type of training do you need, how are 
things going. So, those open dialogues.
    Mr. Walberg. Okay. Do any of the rest of you want to 
answer?
    Mr. Nixon. Just a comment about those. I mentioned that we 
had 200 professionals that give us advice. It is through the 
advisory committees like you mentioned just a couple of moments 
ago. But our workforce development--and I should also mention 
on their behalf that they are in the audience--they are 
presenting a career fair also on this campus this coming 
Friday.
    But having said that, when we have new employees, and we 
hope we have a lot of them in the future, one of them is the 
wind tower company, they were the first ones that came to us 
and told us that all of those certified welders that are coming 
out of the program had some skills gaps. That's when it was a 
one-on-one, if you will, like a triage working with them to 
see, well, if they are missing something you need specifically 
for welding those great big tall towers, then we can step in 
and help them in that regard.
    Mr. Walberg. Well, I appreciate that.
    Madam Chairwoman, I yield back.
    Chairwoman Foxx. Thank you.
    I have one question I wanted to ask Dr. Nixon that he 
raised a little earlier in his comments, and that is you 
mentioned working across state lines.
    Mr. Nixon. Correct.
    Chairwoman Foxx. On the nuclear program I believe it was.
    Mr. Nixon. Yes.
    Chairwoman Foxx. I wondered if you would talk a little bit 
more about the experience that you have in working across state 
lines with other industries or other colleges.
    Mr. Nixon. Right. This was when the nuclear tech program 
became a critical need for DTE. Our problem was we didn't have 
the three or four core courses that were required to start that 
program immediately. There is a community college, Lakeland 
Community College in Ohio, that did have that. So DTE helped us 
fund a two-way television system, and then using some of their 
content experts from the Fermi plant here locally, we were able 
to start up that program right away with two-way television 
classes from Ohio. That gave our curriculum committee, our 
faculty about a year to develop our own program or our own 
courses so that then that certificate would be ours.
    Interestingly, the first nine students that graduated 
walked across our stage, but they had certificates, associate 
degrees from Lakeland Community College in Ohio, and then the 
next year they became the Monroe County Community College 
students. The reason why that is important and I am happy that 
I had an opportunity to say this, that is how much we 
appreciate these direct competitive grant programs like the 
Department of Labor's. We have 260 welders trained, and they 
don't have to be limited to anywhere. It is a federal grant. 
Students can come from anywhere and take those certificate 
programs, and we still have 100 openings, as I said, within a 
50-mile driving radius.
    So we enjoy the opportunity to have a program like that, 
direct tuition for those students to get good jobs, whether 
they are in Michigan or wherever.
    Chairwoman Foxx. Well, thank you very much.
    Mr. Walberg, do you have any other comments? I know we are 
up against a hard break here for people's schedules. So, do you 
have any other questions you would like to ask the panel?
    Mr. Walberg. I'm sure there are plenty more, but I know you 
have a hard break. But could I ask one final question?
    Mr. Levy, you mentioned that there was a 15 percent 
increase in enrollment in the last eight years, correct?
    Mr. Levy. Yes, that is correct.
    Mr. Walberg. Have the rest of you seen that similar 
increase in enrollments?
    Mr. Levy. Let me clarify that. Like I said, that was an 
eight-year period. But in the last few years, it has been 
relatively flat. There was a jump up, and then it is relatively 
flat.
    Mr. Walberg. Okay. And the reason for that jump in your 
determination?
    Mr. Levy. I am imagining it is because of economics, people 
going back to community college to get retrained and retooled. 
I would imagine that would be the main reason.
    Mr. Walberg. So they saw the local community college, the 
local training entity near them as an asset at that point in 
time?
    Mr. Levy. Absolutely, and just a general comment about 
that. Having come from the University of Michigan, now that I 
am at the community college here, there isn't a day that goes 
by that they don't recognize the importance, the critical 
importance of community colleges as it relates to the 
discussion in this hearing. It is a phenomenal asset that this 
country has. So we should continue to foster community 
colleges. They are instrumental to everything we are talking 
about today. There is no question in my mind about that.
    Mr. Nixon. Chairwoman Foxx, if I may, just very briefly, we 
had gangbuster enrollment until this last year, and in all 28 
community colleges we have seen a diminishing enrollment of 5 
to 8 percent. It is because those first jobs that did start 
opening back up after the recession students are tending to 
take to put bread on the table. Now, that is a tribute to the 
shortage of high skills, because we still have a need for the 
high skills out there, but they are taking these low-paying 
jobs for obvious reasons, and that is something that we are 
looking at.
    Mr. Walberg. Are they deciding not to continue on 
developing the high skills?
    Mr. Nixon. Well, they will come here as part-time students, 
but they have to put food on the table. They need a job. You 
would think there would be huge enrollments, but not all of 
them are able to do that if they have to get what is termed in 
the public's remarks as low-paid jobs. They will just take 
them.
    Mr. Walberg. Thank you.
    Chairwoman Foxx. Well, I would like again to thank the 
witnesses from both panels for taking time to testify before 
the subcommittee today. Again, I am very grateful to the 
community college here, Monroe County Community College, for 
hosting us, but everybody else for coming.
    Now I would like to recognize Congressman Walberg for any 
closing remarks he would like to make.
    Mr. Walberg. I thank the chairperson for taking your time 
to come. I know all members of our subcommittee were invited on 
both sides of the aisle. Whether it is a result of 
sequestration and the House's efforts to identify with that by 
reducing our budgets for our offices that have impacted travel 
as well, that may be the reason why a number of our members 
aren't here.
    But the fact that you were willing to hold it and continue 
it is greatly appreciated by me because in Michigan, the first 
state into the recession and the downturn in the economy and 
the loss of jobs, the unemployment rate, we also know it has 
been a tough-fought battle uphill again to come to the place we 
are now where we see some encouraging signs through policy put 
in place by local and state governments, but also by increasing 
efforts from our education establishments identified by those 
here on the panel and others I see in the room that are trying 
to meet the needs of preparing people for real-life work 
situations that makes a difference not only in their lives and 
their family lives but the lives of the community, because we 
know the only way to foster positive growth in the economy is 
if we do it at the grassroots level, where individuals who want 
to take responsibility, to be accountable, to carry on for 
their own lives and their families' lives and have an 
opportunity, as we all had, for future growth and making 
decisions that provide the dreams that is called the American 
Dream in our lives, we need a growing economy that starts with 
people who are trained, who are looking for their sweet spot 
and then functioning in their sweet spot, and then also 
cognizant of the fact that, hey, I don't have to stay here. I 
can grow. I can be retrained. I can add to my abilities.
    So we appreciate the efforts of the community colleges, the 
local colleges and universities, and the training programs. But 
we also have to identify, Madam Chairperson, as I know you 
understand very well from your perspective about efficiency and 
doing things without waste and doing things that are right-
headed thinking, and I am not talking about the political 
context there, but right-headed thinking, things that make 
sense, that we need to be pushing for that and doing it as 
efficiently as possible.
    So with the information that we have gleaned today and what 
we will glean in further hearings, both in Washington and other 
places around our country, we hope that we can make an impact 
for the future that says to our kids and our grandkids we 
didn't screw it up totally for you, but we saw the problems. We 
have redeveloped, we have repositioned, and now we can expand 
for the future, for your opportunities as well, to continue 
making this the country that every other country on this earth 
gravitates toward to find the best practices.
    So I appreciate again the ability to be here today, the 
opportunity, and we look forward to the future. Madam 
Chairperson, thank you.
    Chairwoman Foxx. Well, thank you. And I appreciate the 
opportunity to come to Michigan. This is my second opportunity 
to come here. I was here about three or four years ago, down in 
Chairman Upton's district. I flew into Grand Rapids and had a 
chance to visit that area and enjoyed my visit here. I believe 
it was in May, and it snowed, but I am used to that because I 
come from the mountains of North Carolina and we had a big snow 
last week, and we are used to cold weather. So when looking at 
the trees, they look like they do around my house this past 
weekend. It is not time for spring yet. So I am used to that.
    Having been at Appalachian State University for many years 
and in a community college for several years, I am very well 
aware of the superb history of education that Michigan has, 
obviously. I am very familiar with the names of your community 
colleges from having worked in the education field over the 
years. I am very familiar with the University of Michigan, and 
Hillsdale College has a tremendous presence on Capitol Hill 
these days. They have a seminar one Friday a month. They are 
bringing in people all the time. I have had interns from 
Hillsdale, and so I know Hillsdale County and the name 
Hillsdale from the very great presence that Hillsdale College 
has on Capitol Hill right now.
    I wanted, to save a little time, to say, as we often say on 
the Floor or in committee meetings, I associate myself with the 
remarks of my distinguished colleague, Mr. Walberg, his opening 
remarks as well as his closing remarks. He talked a lot about 
hard-working taxpayers in the United States, and I too am very 
concerned about that. We have a lot of people who are working, 
and we are all very grateful for those people who are working 
and paying taxes right now. It is their money that we are 
spending for these other programs, and it is important that we 
be good stewards of that money.
    So our hearings, both in Washington and here, are to help 
us learn how we can help the higher education community be 
better stewards of the money that is given out directly through 
student aid, as well as indirectly in the programs that are 
being operated by very many people.
    All of us would like to see the United States be the 
manufacturing powerhouse it has been in the past, and North 
Carolina and Michigan share a history in that area, I believe. 
So we would love to see manufacturing come back. We would like 
to see the kind of jobs that are value-added jobs be available 
to our constituents.
    So again, I want to thank our staff, the staff of the 
Education and Workforce Committee, as well as the staff here at 
Monroe County Community College for the effort that you put in. 
And to the folks here who took their time to observe this 
hearing, I hope we have helped enlighten you a little bit as it 
has helped enlighten us.
    And with that, there being no further business, the 
subcommittee stands adjourned.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
